<html>
<title> - REVIEW THE FEDERAL GOVERNMENT'S INITIATIVES REGARDING THE SCHOOL LUNCH AND BREAKFAST PROGRAMS</title>
<body><pre>[Senate Hearing 108-078]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-078

 
                    REVIEW THE FEDERAL GOVERNMENT'S 
                 INITIATIVES REGARDING THE SCHOOL LUNCH
                         AND BREAKFAST PROGRAMS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION


                               __________

                             MARCH 4, 2003

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

88-720 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                  THAD COCHRAN, Mississippi, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
PAT ROBERTS, Kansas                  KENT CONRAD, North Dakota
PETER G. FITZGERALD, Illinois        THOMAS A. DASCHLE, South Dakota
SAXBY CHAMBLISS, Georgia             MAX BAUCUS, Montana
NORMAN COLEMAN, Minnesota            BLANCHE L. LINCOLN, Arkansas
MICHEAL D. CRAPO, Idaho              ZELL MILLER, Georgia
JAMES M. TALENT, Missouri            DEBBIE A. STABENOW, Michigan
ELIZABETH DOLE, North Carolina       E. BENJAMIN NELSON, Nebraska
CHARLES E. GRASSLEY, Iowa            MARK DAYTON, Minnesota

                 Hunt Shipman, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

               Lance Kotschwar, Majority General Counsel

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Review the Federal Government's Initiatives Regarding the School 
  Lunch and Breakfast Programs...................................    01

                              ----------                              

                         Tuesday, March 4, 2003
                    STATEMENTS PRESENTED BY SENATORS

Cochran, Hon. Thad, a U.S. Senator from Mississippi, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............    01
Harkin, Hon. Tom, a U.S. Senator from Iowa, Ranking Member, 
  Committee on Agriculture, Nutrition, and Forestry..............    02
Baucus, Hon. Max, a U.S. Senator from Montana....................    05
Conrad, Hon. Kent, a U.S. Senator from North Carolina............    04
Stabenow, Hon. Debbie A., a U.S. Senator from Michigan...........    06
                              ----------                              

                               WITNESSES

Greenstein, Robert, Executive Director, Center on Budget and 
  Policy 
  Priorities, Washington, DC.....................................    24
MacDonald, Gaye Lynn, Food/Nutrition Services Manager, Bellingham 
  Public Schools, Bellingham, Washington, accompanied by Paula 
  Cockwell, 
  Manager of Nutrition Services, Adams School District 14, 
  Littleton, 
  Colorado; Gail Kavanaugh, Vicksburg-Warren School District, 
  Vicksburg, Mississippi; Teresa Nece, Food Service Director, Des 
  Moines, Iowa, and Marshall Matz, Counsel, on behalf of the 
  American School Food Service 
  Association, Washington, DC....................................    09

                                Panel I

Borra, Susan T., Immediate Past President, American Dietetic 
  Association, Washington, DC....................................    33
Heiman, Dennis J., Principal, Muscatine High School, Muscatine, 
  Iowa...........................................................    41
Kemmery, Robert J., Jr., Executive Director, Student Support 
  Services, 
  Baltimore County Public Schools, Towson, Maryland..............    35
Kozak, Jerry, President and Chief Executive Officer, National 
  Milk Producers Federation, Arlington, Virginia, on behalf of 
  the National Milk Producers Federation and the International 
  Dairy Foods Association........................................    39
Payne, Melanie, Child Nutrition Director, Opelika City Schools, 
  Opelika, 
  Alabama........................................................    37
                              ----------                              

                                APPENDIX

Prepared Statements:
    Conrad, Hon. Kent............................................    52
    Borra, Susan T...............................................    77
    Greenstein, Robert...........................................    66
    Heiman, Dennis J.............................................   101
    Kemmery Robert J.............................................    88
    Kozak, Jerry.................................................    95
    MacDonald, Gaye Lynn.........................................    56
    Payne, Melanie...............................................    92
Questions and Answers:
    Leahy, Hon. Patrick, (Some answers were not provided)........   106



                    REVIEW THE FEDERAL GOVERNMENT'S 
     INITIATIVES REGARDING THE SCHOOL LUNCH AND BREAKFAST PROGRAMS

                              ----------                              


                         TUESDAY, MARCH 4, 2003

                                       U.S. Senate,
          Committee on Agriculture, Nutrition and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Thad Cochran, 
[Chairman of the Committee], presiding.
    Present or submitting a statement: Senators Cochran, 
Chambliss, Coleman, Harkin, Leahy, Conrad, Baucus, Lincoln, 
Miller, and Stabenow.

      STATEMENT OF HON. THAD COCHRAN, A U.S. SENATOR FROM 
MISSISSIPPI, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    The Chairman. The hearing will please come to order.
    It is a pleasure for me to chair this first hearing of our 
Agriculture Committee on the subject of the reauthorization of 
the National School Lunch and School Breakfast programs. These 
programs provide free or low-cost meals to more than 25 million 
children throughout our United States each day.
    Today we will hear from three panels of witnesses to help 
us review these important programs, including representatives 
from the American School Food Service Association and others 
who are well-respected authorities on these programs.
    I want to welcome all of you and thank you for the 
preparation of your statements in advance that you provided to 
the committee for us to review, and we appreciate all of you 
making the special effort to provide this valuable assistance 
to help us better understand the programs and how we may be 
able to improve them.
    I am pleased to have other members of the committee here. 
Senator Tom Harkin from Iowa is the senior Democrat member of 
the committee and has chaired this committee before; and 
Senator Kent Conrad from North Dakota.
    At this time, I will be happy to yield to them for any 
comments or statements they would like to make.
    Senator Harkin.

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, RANKING 
   MEMEBER, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    Senator Harkin. Mr. Chairman, thank you very much, and 
again I commend you for holding this hearing and for making 
this the first hearing that you have held as chairman of the 
committee. That is significant.
    Of all of the issues that have come before this Senate 
Agriculture Committee in all the years I have been on it, there 
is none that has been more bipartisan--or, I should say even 
nonpartisan--than the issue of child nutrition. The issue of 
school lunches, breakfasts, and the WIC program have all 
generated broad support on both sides of the aisle.
    Of course, we are always looking for new ways and better 
ways of doing things and meeting the nutritional needs of our 
kids in school, but this has certainly been a very, very 
bipartisan effort.
    Our Federal child nutrition programs are a success story 
that spans over half a century. School lunch, breakfast, and 
after-school nutrition are vitally important to healthy and 
productive lives of our Nation's kids. I want to join the 
chairman in taking my hat off to the school food service 
professionals who are indispensable to the progress, many of 
whom are here today.
    How many are with American School Food Service Association 
here?
    [A show of hands.]
    Senator Harkin. Oh, there you go. Welcome. I know a lot of 
us will be seeing you later on today also.
    Despite the success, there are huge challenges. Far too 
many children who need schools meals are not getting them. 
Their families may not be able to afford the 30 or 40 cents 
charged for a reduced-price breakfast or lunch. Of children who 
eat school lunches, not even one in three receives a school 
breakfast, and only one in five receives a summer meal. Surely, 
we cannot leave no child behind if children lack the nutrition 
they need for learning.
    In addition, we have a childhood health and nutrition 
crisis in America. I want to repeat that: We have a childhood 
health and nutrition crisis in America. Overweight and obesity 
among children and adolescents has tripled in the last 20 
years. Their rates of high cholesterol, high blood pressure, 
and Type 2 diabetes have shot up dramatically.
    If we stay the current course, this crisis can only expand 
like a snowball barreling down a mountain. Our former U.S. 
Surgeon General David Satcher concluded that the combined cost 
of overweight, obesity, and lack of physical activity--let me 
underline that--lack of physical activity--the combined cost of 
this in lost lives and impaired health actually exceeds the 
toll taken by tobacco in our society.
    On the surface, it may seem contradictory to call for 
increasing participation in school meals in the face of growing 
childhood overweight and obesity, but the opposite is true. If 
children can obtain or afford balanced, nutritious school 
meals, unhealthy eating is frequently the alternative.
    In other words, school meals are not the problem, but they 
are the essential part of the solution to childhood overweight 
and obesity.
    To be sure, schools should further improve the nutritional 
quality of their meals, and schools have to do more to promote 
physical exercise and fitness. I saw a figure the other day, 
Mr. Chairman, that over 80 percent of elementary school kids in 
America do not even have 1 hour of PE a week. What can you 
expect when kids do not even get physical exercise?
    Let us put the focus where it belongs. School vending 
machines and a la carte counters are filled with products from 
companies that seem determined to super-size everything--and 
everybody--within reach of their ever-present advertising. How 
in the world does a healthy, balanced meal stand a fair chance 
against billions of dollars' worth of marketing?
    Common sense calls for increasing the availability of sound 
nutrition in schools and limiting the sales of competing foods 
that crowd out healthier choices. Instead of picking this up, 
which kids can get--potato chips, with all the fat and 
cholesterol--they ought to be picking up this orange and eating 
it.
    The problem is that the potato chips are available, and the 
orange is not, and therein lies the problem.
    We started a pilot program--I did--in the last Farm bill to 
offer free fruits and vegetables in schools. Four States signed 
up for it plus one Indian Reservation, 100 schools in total, 
and the preliminary data is that when kids get free fruits and 
vegetables in school, they eat them. We have one principal from 
Muscatine, Iowa today who will testify as to what happened in 
Muscatine with that program.
    We should also build on these pilots and increase access to 
school breakfast and summer food and provide these free fruits 
and vegetables to kids in our schools. In the absence of any 
better alternative--and I say this forthrightly--in the absence 
of any better alternative, we should ban school vending 
machines and regulate a la carte sales.
    [Applause.]
    Senator Harkin. To attain these goals, additional funding 
above baseline levels is critical. We are going to have to 
fulfill our responsibility here in Congress.
    I just want to say one other thing, Mr. Chairman--and you 
have indulged me in giving me a little more time here--I just 
want to say one other thing. Our school food service people are 
doing an outstanding job. We are meeting the dietary guidelines 
today better than we ever have in the past. There is one 
problem. The dietary guidelines are wrong, and we are just 
beginning to learn that.
    Look at the last issue, the January issue, of Scientific 
American--a very nonpartisan magazine, to be sure. It is called 
``The Government's Flawed Diet Advice.'' Nutritionists, 
doctors, and health professionals have been looking at our food 
pyramid for a number of years, and the conclusion among--well, 
I would not say 100 percent--but I would say close to 100 
percent of them is that our old food pyramid is wrong, and we 
need a new one. Now, that has nothing to do with this, but I am 
just saying that part of our obligation here is to get the USDA 
to move very rapidly to come up with a new food pyramid so that 
the school food service people can meet the new types of 
dietary guidelines we have with all the expertise that you 
have.
    Again, Mr. Chairman, I look forward to working with you and 
my colleagues in a bipartisan manner on this legislation which 
is so critical to our children and our future, and thank you 
for indulging me.
    The Chairman. Thank you, Senator Harkin.
    Senator Conrad.

STATEMENT OF HON. KENT CONRAD, A U.S. SENATOR FROM NORTH DAKOTA

    Senator Conrad. Thank you, Mr. Chairman.
    I want to echo the ranking member in thanking you for 
holding this hearing. It is very timely to have done it today, 
and we appreciate it very much.
    I want to salute the representatives of North Dakota who 
are here--Kathy Grafsgaard, the Director of Child Nutrition 
Programs; Dixie Schultz from Mandan, which is where my family 
hailed from for many years; and Julie Tunseth from Grand Forks. 
They are in charge of serving nearly 74,000 meals each day for 
school lunch in North Dakota. We appreciate the job they do.
    As Senator Harkin was speaking, I was reminded of a time 
when I attended a meeting of this committee many years ago. 
Back when I was a young man, I was in Washington, and came to a 
Senate Agriculture Committee hearing on the question of 
nutrition. I will never forget it. Senator McGovern from South 
Dakota was the chairman at the time, and Senator Dole was on 
the committee--and Senator Alan Ellender of Louisiana told the 
expert witness who, as I recall, was from the State of Iowa, 
that he said had only one question. The question was ``What is 
this pablum?''
    The witness was taken aback at the question and laughed. He 
then described pablum. Ellender said, ``Well, I wanted to know 
because my daughter has fed that to our grandchildren, and they 
are all as fit as hogs.''
    [Laughter.]
    Senator Conrad. I do not know if we are serving pablum in 
our schools. I rather doubt that it is part of the breakfast 
program, but we all understand how important it is that people 
have good nutrition.
    My grandmother, who raised me, was a devotee of Adele 
Davis' ``You are what you eat'' and believed very strongly 
proper nutrition and in physical exercise.
    However, when I look across the spectrum and look at all 
the indices for our younger generation, they are missing out on 
both counts. The nutrition is inadequate and furthermore, too 
little physical exercise. As a result, we have obesity 
dramatically on the rise in this country.
    As recently as in my grandfather's generation, they milked 
cows before they went to school in the morning--getting their 
exercise even before they went to school. In my time, it was 
not an hour of exercise each week like kids now are getting but 
an hour a day playing sports.
    I am very concerned about this trend and the related 
nutrition and obesity issues, and again, thank you Mr. Chairman 
for holding this hearing to examine them.
    The Chairman. Thank you, Senator Conrad.
    [The prepared statement of Senator Conrad can be found in 
the appendix on page 52.]
    Senator Baucus.

   STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    As I was listening to the testimony not only of Senator 
Conrad but also Senator Harkin, I was reminded of several years 
ago in Montana, at the Fork Pack Indian Reservation, when I was 
talking to some of the high school students there on the 
reservation who were appalled at the food that they were 
getting in the school lunch and school breakfast program there 
and the USDA guidelines.
    In fact, they took the issue into their own hands, and I 
was very proud of them. One of the students was an editor of 
the school paper, and she wrote a column about how bad things 
were and got several students to go on strike, that is, to just 
not participate and also not go to school for a couple days, 
because in their view, the program was so deficient.
    The strike lasted for a while, but they finally had to give 
in, and USDA did not make the changes, and it really was sad to 
me, but it was an indication to me of just how bad things were, 
at least at that time, on that reservation and in that school, 
and to what great lengths the kids were willing to go to try to 
get some changes.
    I must confess that I do not know at this point what the 
changes are and whether the program is much better, but right 
now, having said all this, I am going to find out, and we are 
going to see what can be done to make sure the changes are 
there. It really is appalling, and it has been said before, 
with the obesity that is growing in this country, and diabetes 
which is also growing in this country--and I also think that to 
some degree kids think they are somewhat entitled these days to 
certain things, material and to eat certain things, much 
different than was the case 20 or 30 years ago--there is just 
too much of a sense of entitlement among kids today.
    I do not know what the solutions are. The solutions clearly 
have a lot to do with better programs and better nutrition, 
better dietary guidelines. There is no doubt about that. The 
problem runs even deeper.
    Most of this comes down to attitude and self-esteem and 
self-respect, which kids apparently, for reasons I do not fully 
understand, do not have enough of these days to watch better 
what they eat, demand and want better food and so forth.
    It also means perhaps some program, a public-private 
partnership with the fast food industry, to see if there is 
some way to make some of those products a little more 
nutritious than they are.
    It is a huge problem, but I do know the basic premise is 
totally accurate, that is, that the better the food, the better 
the quality of the food, the better lives our kids are going to 
lead in school and can be more upbeat and proud and feel better 
and study better and so on. It is true of all ages. The WIC 
program, for example, is extremely important for infants and 
for the mothers, because if there is low birthweight, clearly, 
the kids are much more at risk; and also, the kids do a lot 
better when they are fed properly. It is a huge issue.
    I am reminded of something I saw on the news just a short 
while ago, that 800 million people in this world are starving. 
That is worldwide, of course. In our country, I suppose a few 
probably are starving, but there is no excuse for the biggest, 
wealthiest country in the world, the only superpower in the 
world by far, to not be sure that all of its kids have very 
healthy diets and are doing very well nutritionally. It is the 
very least we can do.
    I commend you, Mr. Chairman, for holding this hearing, and 
I hope we can make a difference here.
    I also welcome Linda Adahold from Montana, who is with 
Montana Food Services--I believe she is in the audience. We do 
not have a lot of folks in Montana, so when somebody from 
Montana shows up, we are pretty proud.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Baucus.
    Senator Stabenow.

   STATEMENT OF HON. DEBBIE A. STABENOW, A U.S. SENATOR FROM 
                            MICHIGAN

    Senator Stabenow. Thank you, Mr. Chairman. First, let me 
offer congratulations. This is our first opportunity in the 
committee with you as Chairman, and I look forward to working 
with you. I would also like to comment our ranking member for 
his leadership as well.
    I have to comment--Senator Harkin held up an orange--that 
is one of the few fruits that we do not grow in Michigan, but 
next time, I want equal time for an apple or a cherry or 
blueberries, peaches, and grapes--I could go on and on.
    I would also like to welcome our panel. I have good friends 
on the panel. I look forward to working with you, as we move 
forward.
    I want to apologize in advance. I have three committee 
meetings happening at the same time, so if I leave, it is not 
because of what you are saying. I will stay as long as 
possible.
    I want to thank and welcome the members here from the 
Michigan School Food Service Association and other folks from 
Michigan who are here--I want to thanke all of you for coming. 
Many of you are returning and have been working on these issues 
for many years.
    The child nutrition reauthorization bill is one of the 
committee's top priorities for this year, and we need your 
input and welcome it. This is a tremendously important bill, as 
we all know, that covers some of our Nation's most important 
nutrition programs, ranging from the School Lunch and School 
Breakfast Program, the Child and Adult Feeding Program, and 
WIC. These programs impact people's lives directly. I welcome 
you.
    These programs are very important in Michigan. Last year, 
we had over 132 million school lunches that were served to 
children in our State. That is quite amazing--and think of the 
difference that that has made in their lives--and I want to 
thank the people in the audience who have made that possible.
    We all know that a hungry child cannot learn, and each of 
you does your part each and every day to make sure that our 
most basic and important needs are met for our children.
    Many of the other programs that will be included in our 
reauthorization are equally important to Michigan. Half of all 
babies born in Michigan are eligible for WIC. Each day in my 
State, over 66,000 children and seniors attend day care centers 
that benefit from the Child and Adult Care Food Program. 
Twenty-five schools in Michigan are participating this year in 
the fruit and vegetable pilot, and I am hearing wonderful 
things about that and am looking forward to expanding that 
program as well.
    The list just goes on and on, and simply put, the USDA 
nutrition programs provide critical help to people in my State 
of Michigan, as I know they do in the States of everyone who is 
here.
    I am looking forward to working with the committee to 
devise a bill that increases access, increases awareness 
regarding nutrition and increases critical funding and support 
for these programs.
    I am particularly interested in exploring ways to reduce 
paperwork for schools and to make sure that hungry children get 
the meals they need by reducing the current three-tier 
eligibility to a two-tier eligibility.
    [Applause.]
    The Chairman. I did not mention it, but at the first 
applause that we had for one of Senator Harkin's statement, I 
did not say anything about the applause because I agreed with 
what he said, but for fear that I may not agree with everything 
that everybody else may say, I do not think we ought to turn 
this hearing into a pep rally of any kind. This is a serious 
undertaking to hear from the witnesses whom we have invited to 
testify before the committee today, and that is the reason we 
are here, and to hear their suggestions and observations about 
the way these programs have been administered, the suggestions 
for changes in the authority the Department of Agriculture has 
to administer the programs, the funding levels that are 
authorized in the legislation. There are a lot of very 
important factors and facts and information that we need in 
order to do our job to write this legislation so that it can 
meet the needs of all the children and others in our society 
who are served by these programs.
    It is with that frame of mind and attitude that we are 
going to proceed--not as a political rally and not to express 
your favor or displeasure with anything that any witnesses says 
or any member of this committee says. I hope you will honor 
that as we proceed with the hearing--and that is not to 
criticize anything Ms. Stabenow said or to say that I disagree 
with anything she said, but I just thought we ought to start 
now at the beginning, with the Senators' statements, to have 
that understanding.
    I apologize for interrupting you. You may continue.
    Senator Stabenow. Thank you, Mr. Chairman. That is 
perfectly all right. I have a couple more points, but I do hope 
for the record that we will recognize that there was extreme 
applause for that last point--and I will assume applause that 
will be unheard for the next point.
    As a member of the Budget Committee, I also want to put 
into the record that I stand behind the child nutrition forum's 
proposal for allocating an additional $1 billion per year for 
reauthorizing these important programs. We will be bringing a 
budget resolution before the Senate in the next few months, and 
I am hopeful that we will have strong bipartisan support coming 
from the committee to do that.
    I would just say that as a Senator representing a very 
diverse State--we are very proud to represent a large State 
that grows many fruits and vegetables--there are many ways that 
we can meet the needs of children with our fruits and 
vegetables. It is a win-win for agriculture as well as for 
children and seniors and others.
    We made progress in last year's Farm bill when we required 
that the USDA purchase an additional $2 billion a year in 
fruits and vegetables. I was very proud to lead and sponsor 
that effort. We are running into trouble implementing that with 
the Department, and I am hopeful, Mr. Chairman, that we can 
work together to correct that particular issue.
    There are many other things that we need to be focused on--
more fruits and vegetables in the WIC program and possibly we 
need to mandate that change in order to make sure that that 
happens. In conclusion, I would just say that I cannot forget 
my dairy producers in Michigan, who provide such an important 
role in providing milk for children with every meal.
    Mr. Chairman, this is an important bill and an important 
set of issues. There is nothing more fundamental than nutrition 
and giving every child the opportunity to be healthy so that 
they can succeed in life.
    Again, I welcome the witnesses.
    The Chairman. Thank you, Senator.
    The Chairman. Let me welcome our panels. We have three 
panels of witnesses who will testify before the committee this 
morning. First, representatives of the American School Food 
Service Association; and a second panel represented by Robert 
Greenstein, Center on Budget and Policy Priorities; and a third 
panel of other representatives of the American Dietetic 
Association and some local administrators of child nutrition 
programs and school administrators.
    Our first panel is led by Ms. Gaye Lynn MacDonald, who is 
the Food/Nutrition Services Manager of Bellingham Public 
Schools in Bellingham, Washington. She is accompanied by others 
representing the American School Food Service Association, 
including Ms. Paula Cockwell, who is Manager of Nutrition 
Services at the Adams School, District 14 in Littleton, 
Colorado; Ms. Gail Kavanaugh, of the Vicksburg-Warren School 
District in Vicksburg, Mississippi; Ms. Teresa Nece, Food 
Service Director in Des Moines, Iowa; and Mr. Marshall Matz, 
who is counsel to the American School Food Service Association 
here in Washington, DC
    Ms. MacDonald, we welcome you and your colleagues. I must 
tell you that I am going to have to leave to go over to an 
Appropriations Committee meeting of Republican Senators where 
we are organizing that committee for this Congress, and I am 
going to leave the committee under the tender mercies and 
astute chairmanship--temporarily--of my good friend from Iowa, 
who has agreed to be here while I go to this other meeting. I 
will return, but Senator Harkin is going to assume the duties 
of the chair to hear the testimony of this group, and I will 
return as soon as I can.
    Thank you, Senator Harkin.
    Senator Harkin. Does that mean I will get some more money 
from the Appropriations Committee?
    The Chairman. You never know.
    [Laughter.]
    Ms. Kavanaugh. Senator, before you leave, I would like as 
one of your constituents from Mississippi to make one 
statement.
    I totally agree with the statement that was submitted by 
ASFSA to the committee, and I would like to address one issue 
before you do have to leave us, and that is in the area of the 
program access under the reduced meals that we are talking 
about.
    In my State of Mississippi, as other States across the 
Nation, many of our children and families who qualify for the 
reduce-price category are finding it very hard to pay for these 
meals and to come up with the 40 cents for lunch and the 40 
cents for breakfast.
    Increasingly, we are seeing food service administrators, 
food service managers, principals and teachers having to reach 
into their own----
    The Chairman. If you want me to go and get some money for 
these programs, I need to go to the Appropriations Committee.
    Ms. Kavanaugh. Well, I would just like to say that it is an 
issue in Mississippi.
    The Chairman. I appreciate your pointing that out, and we 
have talked about it before, and we will continue to listen to 
your concerns and suggestions for changing it.
    Ms. Kavanaugh. Thank you, Senator.
    Senator Harkin [presiding.] Thank you. We will proceed, 
then, Ms. MacDonald.
    All of your statements will be made a part of the record in 
their entirety. We would appreciate it if you could summarize 
and hit the high points of your statement for us within--we 
will use the timer--why don't we take about 5 minutes per 
person, and if we need more, we can extend it, but let us try 
to keep to about 5 minutes.
    Again, I join the chairman in welcoming all of you here, 
and Ms. MacDonald, the floor is yours.

   STATEMENT OF GAYE LYNN MACDONALD, FOOD/NUTRITION SERVICES 
              MANAGER, BELLINGHAM PUBLIC SCHOOLS, 
 BELLINGHAM, WASHINGTON, ON BEHALF OF THE AMERICAN SCHOOL FOOD 
                          ASSOCIATION

        ACCOMPANIED BY PAULA COCKWELL, MANAGER OF NUTRITION SERVICES, 
            ADAMS SCHOOL DISTRICT 14, LITTLETON, 
            COLORADO;
GAIL KAVANAUGH, VICKSBURG-WARREN SCHOOL DISTRICT, 
            VICKSBURG, MISSISSIPPI;
TERESA NECE, FOOD SERVICE DIRECTOR, DES MOINES, IOWA; AND
MARSHALL MATZ, COUNSEL, AMERICAN SCHOOL FOOD SERVICE 
            ASSOCIATION, WASHINGTON, DC
    Ms. MacDonald. Thank you very much, and I appreciate the 
Senator introducing the rest of the panel so that we can move 
on, and you already acknowledged that we have a few hundred of 
the best child nutrition administrators throughout the country 
with us along with some of the representatives of the food 
service industry.
    I do want to begin by thanking you and the committee for 
again accommodating us in this very special tradition of 
holding this hearing during our Legislative Action Conference. 
We are delighted to be with you to provide some proposals to 
you for child nutrition.
    The success and the security of a culture is often measured 
by how it nurtures its children, and there is a traditional 
Masai greeting, ``Kaseria n ingera,'' that asks, ``And how are 
the children?'' If the children are well, the society is well, 
and the future is secure. Our statements will touch on how are 
the children in the United States.
    We have hungry children in our rural communities and our 
urban cities. We also have the paradox, as you pointed out, of 
overweight and obesity. We believe that the school meal 
programs are part of the solution to both of these problems.
    We also believe that this is a pivotal year for child 
nutrition through the reauthorizing of the programs that expire 
in 2003, and certainly these programs can improve health 
outcomes for children and further the goals of No Child Left 
Behind.
    I will frame our proposals in three areas--program access, 
healthy children, and program integrity. As you heard from Ms. 
Kavanaugh, many children from families qualified in the reduced 
price category are not able to participate in the program 
because they cannot afford the fee of 40 cents for lunch or 30 
cents for breakfast. While this may not seem like a lot of 
money to those of us in this room, it is a lot of money for 
families from households between 130 and 185 percent of the 
poverty line.
    The reduced-price fee is a major barrier.
    Senator Harkin. If I might just interrupt, a lot of people 
forget that sometimes these families may have three or four 
kids in schools, so it is not just 40 cents a day--it could be 
up to maybe $2 a day.
    Ms. MacDonald. That is absolutely correct. Thank you for 
understanding that. That is a complex point, and it is very, 
very true.
    We see that participation rates decline toward the end of 
the month in this particular category if they are participating 
at all.
    As you know, in the WIC program, all those with family 
incomes below 185 percent of poverty and who otherwise qualify 
receive benefits without charge. We are proposing that this 
same income guideline be extended to the school nutrition 
programs. The reduced category is by far the smallest of the 
three tiers we currently have. Less than 10 percent of all the 
meals are served to children in the reduced category. 
Eliminating the reduced price category and feeding children 
eligible up to 185% is our primary priority.
    Also, consistent with GAO analysis showing a gap between 
the cost to produce a school lunch, we would propose that 
Federal reimbursement rates for all meal categories be 
increased. The current reimbursement rate of $2.14 for a free 
lunch is simply inadequate. The rates for reduced and paid 
meals are not adequate, either, resulting in higher and higher 
prices being charged to the paying child.
    It is also our recommendation that Congress extend the USDA 
commodity program to the school breakfast program. Currently, 
that program receives no USDA commodities. We recommend that 
USDA contribute 5 cents in commodities for each breakfast 
served in the program, which also serves American agricultural 
interests.
    In terms of healthy children, the American School Food 
Service Association is deeply committed to the health of our 
Nation's children and continues to work collaboratively to 
further positive health outcomes.
    We are about good nutrition, not just providing food, and 
as you know, we strongly supported amending the National School 
Lunch Act to require implementation of the Dietary Guidelines 
for Americans.
    According to the most recent USDA study on the subject, 
schools are making very significant progress in implementing 
those guidelines. The fat content of reimbursable meals is 
significantly down, and an increasing variety of fruits and 
vegetables is more readily available.
    Food service program operators have modified food 
preparation methods, rewritten food product specifications to 
lower fat, sodium and sugars. Industry has responded to our 
requests, and familiar student favorites are part of meals 
meeting the dietary guidelines.
    We further, however, recommend that an additional 10 cents 
per meal be provided to schools to further improve their 
nutritional quality. There are significant costs associated 
with meeting nutrition standards, such as continuing to 
increase the availability and variety of fresh fruits and 
vegetables and to purchase products consistent with the dietary 
guidelines.
    I want to note that in the past year, ASFSA has joined with 
the National Dairy Council on a research project to determine 
if changes in the way milk is marketed in schools can increase 
consumption of milk and the nutrition it provides. The results 
of the test are very positive, and we have provided the 
committee a copy of the report. There are again cost 
implications in implementing the recommendations of the study.
    As you pointed out, Senator Harkin, in the ``Call to Action 
to Prevent Overweight and Obesity,'' there are recommendations 
that schools adopt policies ensuring that all foods and 
beverages available across school campuses and at school events 
contribute toward eating patterns that are consistent with the 
Dietary Guidelines for Americans. We urge the Congress and the 
administration to implement the recommendation of Secretary 
Tommy Thompson and the Surgeon General with regard to foods 
available in school.
    Another important point is nutrition education, and 
financial support for nutrition education continues to fade 
into oblivion. Not many years ago, nutrition education was a 
Federal entitlement program--a small program, but one that 
provided guaranteed funding. Nutrition education is now a 
discretionary program without any funding. Students cannot 
learn to make healthy food choices without access to age-
appropriate nutrition education.
    At a minimum, we propose an entitlement of one-half cent 
per meal be allocated to States to develop State and local 
infrastructure to deliver that nutrition education.
    In terms of program integrity, ASFSA members are public 
employees, and we take very seriously our responsibility to 
administer the programs consistent with the law. We are aware 
of concerns raised by reports indicating that there may be an 
excessive error rate in the number of students approved as 
eligible to receive free and reduced-price benefits in the 
school meal programs. We question the underlying assumptions 
and conclusions of these studies. It is a subject that we have 
discussed and continue to discuss almost weekly with USDA.
    We believe that reasonable income verification requirements 
are necessary to guarantee that the program is administered 
consistent with the law. Eligible students should not be 
intimidated by excessive income verification requirements, and 
the greater the regulatory burden on the program, the greater 
the cost to produce a meal.
    In an effort to respond appropriately and reasonably, ASFSA 
has made specific recommendations and continues to work with 
USDA, and we look forward to working with you to resolve these 
concerns.
    Last but not least, let me comment on food safety. 
Maintaining high food safety standards in the Federal nutrition 
programs is critical----
    Senator Harkin. Excuse me. I am not going to cut you off, 
and I want to give you some more time, but could you go over 
your recommendations on the application process. It would be 
good for you to go over those. Would you do that for me?
    Ms. MacDonald. Did you want the specific proposals or just 
what we believe are reasonable here?
    Senator Harkin. Your recommendations.
    Ms. MacDonald. Yes. First, make school meal application 
approval valid for the full year. Second, expanded categorical 
eligibility. Currently if you qualify for Food Stamps or TANF, 
you automatically qualify for school meals. We are proposing to 
expand that so in States where the eligibility guidelines for 
Medicaid, SSI, and Children's Health Insurance Programs are 
compatible with the school meal eligibility, those programs 
would also allow children to be directly certified for meals.
    Senator Harkin. Thank you.
    Ms. MacDonald. Also, there are applications that are called 
``error-prone'' that is when the application income falls 
within $100 of the guideline. Studies have found that those 
tend to have more errors in them than others.
    We are proposing that we would verify 100 percent of those 
error-prone applications at the time that they come in to us to 
further ensure that eligible children only are brought into the 
program.
    Thank you, for allowing us to clarify in more detail those 
proposals. Now I will go on to food safety.
    Data shows that in the majority of schools nationwide, the 
food service staff demonstrate very high standards and 
performance in the safe handling of food. We support public 
expectation that foods be handled using consistently monitored 
and reinforced food safety training and techniques for food 
service staff--as is found in most school programs across the 
country.
    The United States has the most abundant and safest food 
supply in the world, and within the United States, school food 
service is one of the safest providers. Food safety is not an 
area in which to take any chances, particularly when we are 
talking about the Nation's children.
    Therefore, ASFSA has outlined and we are submitting with 
this testimony a legislative proposal that ensures the 
development and implementation of food safety systems in all 
schools participating in the Federal school lunch program. The 
legislation includes funding for development of such a program, 
for training consistent with the program, for facility 
improvements necessary to meet the standards and development of 
a reasonable timeframe.
    In conclusion, Senator Harkin, members of the committee, we 
present to you a very full agenda for the child nutrition 
programs. We do appreciate that we are meeting at a very 
difficult time for the United States and that Congress has many 
issues to address.
    However, the health and well-being of our children is 
paramount to the security and the future development of our 
country. It is our responsibility as those who work in child 
nutrition programs to share our views on what is needed to 
assure that healthful meals and nutrition education are 
available to all children.
    We look forward to working with the committee and with the 
Congress on the 2003 child nutrition reauthorization 
legislation. We would be pleased to answer any questions that 
you may have, and we do thank you all for your continuing 
support of child nutrition.
    Thank you.
    [The prepared statement of Ms. MacDonald can be found in 
the appendix on page 56.]
    Senator Harkin. Thank you, Ms. MacDonald, and thank you for 
your great leadership and all of you from the American School 
Food Service Association.
    I will open it with questions, and we will take 5 minutes 
each as we go down the line on questioning.
    I want to get one thing clear for the record, Ms. 
MacDonald. Is your association advocating the two-tier system? 
I know you talked about program integrity, a nd I am not 
certain that----
    Ms. MacDonald. Yes, we are.
    Senator Harkin. Oh, you are.
    Ms. MacDonald. Yes, we are. Our primary priority to take 
those students currently in the reduced category and move them 
into free.
    Senator Harkin. OK. I just wanted to make that very clear 
for the record.
    Ms. MacDonald. Thank you.
    Senator Harkin. I concur with you on that, and I hope we 
can move ahead in that direction this year to make this a two-
tier system. In one of our panels coming up, Mr. Greenstein is 
going to be talking about some of the errors that were made in 
some of the data collection, and that will be good for the 
record.
    Ms. MacDonald. I believe he is, yes.
    Senator Harkin. Let me wade into an area that I mentioned 
in my opening comment. As I said, you all have done a great job 
helping our kids meet the dietary guidelines under really tough 
circumstances. As I said, these kids are inundated every day 
with billions of dollars of advertising every year for 
unhealthy foods, yet you are trying to get them to eat foods 
that are good for them and that meet the dietary guidelines.
    Now, this is not in your purview, but it is within ours, I 
believe, and that is to ask the USDA to come up with a new set 
of guidelines based upon a new kind of food pyramid. I referred 
to the article in Scientific American.
    It is clear--abundantly clear now--that the original food 
pyramid is just wrong, and it needs to be changed. I am looking 
for any advice and suggestions that you all might have in that 
regard and how you all think it might be changed to better 
reflect what we know now in terms of childhood development, 
what is healthy, what is not, what is good for growth. We know 
a lot more now than we did 20 years ago.
    Ms. MacDonald. Well, we would hope that we could be part of 
the discussion with USDA, and as you know, our concern is to 
advance good nutrition for all children, and we do believe, as 
you stated, that school meals can be part of the solution. We 
are probably one of the only programs or areas in the country 
that still models age-appropriate serving size, so we that is 
something that we continue to promote.
    We also, though, recognize that the issue of foods 
available in schools is not limited to what is available in the 
cafeteria, that it does extend to the total school environment 
as well. I am particularly pleased about your pilots, the fresh 
fruits and vegetables pilot----
    Senator Harkin. I want to ask you about that.
    Ms. MacDonald [continuing]. If I may, I would like to defer 
to Ms. Nece who, as a food service director in Des Moines, is 
actually participating in the pilot.
    Senator Harkin. As a preface, Ms. Nece--and I welcome you 
here again--but just as a preface, I put $6 million in the Farm 
bill last year to do a pilot program. I had this theory that I 
wanted to test. I tried to get rid of vending machines before, 
and I was not very successful, so I wanted to try a new theory, 
and that is if fruits and vegetables were available to kids 
during the day, free--not just in the lunch room, but free, 
during the day--my theory was that kids would eat them, and 
perhaps some of their consumption of some of this other stuff 
might go down.
    Four States were involved--Iowa, Michigan, Indiana, and 
Ohio, and one Indian tribe in New Mexico--100 schools. That is 
the basis of it, and I am just wondering what you have heard 
about it.
    Ms. Nece. I am actually implementing the fruit and 
vegetable pilot in three schools in Des Moines, Iowa. We have 
the program in three buildings that are K-12, so it is an 
elementary school, a middle school, and a high school. The 
program is awesome. It has been very well-received by our 
student body, our administration, and our teachers.
    The students consume huge volumes of fresh fruits and 
vegetables, and that is the most exciting thing that you can 
see happen on a daily basis when you walk into a high school 
cafeteria during a block schedule break, and the cafeteria is 
abuzz with students coming in for a fruit or vegetable break.
    The building staff tell me that the vending machines have 
actually seen less volume of usage during those morning break 
periods than previously. We have not seen any negative impact 
on school meals participation; we have actually seen students 
come down and have lunch with us who may not have previously 
set foot in that particular high school cafeteria.
    In the middle school, we are actually doing classroom 
distribution. We send a basket, which is a very large basket, 
to each and every classroom each day, filled with at least 
three choices of fresh fruits, vegetables, or dried fruits, and 
those baskets are empty at the end of the day. If there is 
something that is a very student-popular favorite such as a 
pineapple item, they will go from room to room to find that 
pineapple.
    That is probably the testimony of how successful this is, 
from building administration, from teachers, and most 
important, from the students themselves. We have had children 
try things that they have never, ever tasted in their entire 
lives.
    Senator Harkin. We have Mr. Dennis Heiman here, the 
principal of Muscatine High School, and he is going to talk 
specifically about one high school in Muscatine and what they 
have done with that. I thank you for that. Thank you for 
administering this program.
    We have heard the same kinds of results from other States; 
Senator Stabenow earlier from Michigan, the same thing.
    Senator Conrad.
    Senator Conrad. Thank you, Senator Harkin, and thank you to 
our panelists for being here today.
    In just a few minutes, I will have to leave to give a 
speech to the State Treasurers from around the country about 
the budget outlook for our Nation. All of these issues with the 
school lunch and breakfast programs are linked with the budget. 
We talk out of context too much of the time in Congress. We 
talk in the Defense Committee about defense; we talk in the 
Agriculture Committee about nutrition and aid to our farmers; 
and we talk in the Environment Committee about what we can do 
to clean up our air and water. However, there are very few 
opportunities to bring all of the issues together. That is the 
responsibility of the Budget Committee of which I am a member.
    I can tell you that the child nutrition programs are going 
to be dramatically impacted by decisions made in the budget. 
Already, we are in record deficit. The deficits that we are 
currently running are the largest ever. We now see that we will 
be running budget deficits, very large deficits, the entire 
rest of this decade. On top of that, we will be taking all of 
the Social Security surplus funds generated over the next 
decade--every last dime--and using it to fund tax cuts and for 
other expenditures.
    We are now in a circumstance in which the President is 
recommending additional tax cuts eventhough we all know the 
baby boom generation is about to retire and put unprecedented 
demands on the Federal Government for spending on programs like 
Social Security and Medicare. In addition, he is recommending 
making permanant the previously enacted tax cuts and an 
additional round of tax cuts as a part of what he calls a 
``growth package.'' On top of that, the President also 
recommends a whole new savings plan that will result in 
enormous cost to the Federal Treasury in the second five years 
of that plan. All of these proposals will add to deficits 
that--according to the President's own analysis will spin out 
of control in the next decade when the baby boomers retire.
    I say this because all of this involves choices. Ms. 
MacDonald, you are asking for an increase of spending on the 
school breakfast and school lunch programs by a billion dollars 
each year. Those billion dollars would have to be borrowed. As 
I have indicated, all the Social Security surplus is already 
being spent for other purposes, so that fund cannot be used 
anymore.
    This funding request raises the question--do you add to the 
deficit, do you raise taxes, or do you cut someplace else for 
this priority? We are going to have to wrestle with this 
question. I am not going to ask you, Ms. MacDonald, because you 
do not have responsibility for putting together the budget. 
Although, in a way, you do have that responsibility, because 
you are part of the American public, and the American public 
ultimately has to decide what makes sense.
    Personally I believe we are on a disastrous course as a 
country, one that does not add up and one that is going to lead 
to very, very serious--very, very serious--choices down the 
road for a future Congress and a future President.
    I will ask you one question, Ms. MacDonald. What is the 
evidence that parents are not able to meet the requirement for 
as little as 40 cents a meal for lunch? What tells you that 
they are having trouble meeting that? It seems like a very 
modest amount of money.
    Ms. MacDonald. They telephone us, and they say, ``You know, 
we have these charge notices home that our child owes $6. I do 
not understand.''
    ``Well, you have to pay 40 cents.''
    ``I cannot pay 40 cents.''
    They cry. I have had grandparents call me who are raising 
their grandchildren. They cannot meet the 40 cents.
    It is very, very difficult. As you heard from our witness 
from Mississippi, who has a poignant story that I will let her 
tell you, our staff are paying money out of their pockets so 
that these children can eat.
    Ms. Kavanaugh. Several years ago, Senator, I had a young 
mother come to my office, and she needed some help with a 
charge notice that she had gotten. She did not quite understand 
why she owed the money. As we reviewed the paperwork on this 
particular family, her eligibility had been changed to reduced 
price. She had been free in prior years, but she had secured a 
job and was working, and in this particular year, she was very 
good at her job and got a raise at her job. This automatically 
threw her into the reduced category where she lost any other 
benefits that she was getting including the free benefit.
    At that time, she was actually in worse condition because 
she had worked, because she was trying to provide for her 
family. She requested a hearing, and we provided an official 
hearing. We did have her bring in documentation of income, and 
we looked at all that. It was conclusive that we were correct 
in determining that she would fall into the reduced category.
    As she left the hearing, she began to cry, and she said, 
``I do not know what I am going to do.'' Excuse me if I get 
emotional, but it was an emotional situation. My superintendent 
was very emotional over it.
    As she left, I said, ``We will find a way to take care of 
this child.'' In the end, I talked with my superintendent, and 
I said, ``I will find an organization.'' Well, I went to the 
``organization of Gail Kavanaugh,'' and I went back to my 
office and wrote out a check for the rest of the year for the 
child's meals. He was taken care of, but we increasingly see 
this especially with our staffers out in the lunch room--and 
these are low-paid positions anyway--that they are not going to 
let a child go hungry. They will pay it out of their own 
pocket.
    Increasingly, we are seeing this. We see principals on a 
daily basis who come to school with money in their pockets to 
give out. Now, we are already talking about people who work for 
education who, as you know, are some of the lowest-paid 
positions.
    Yes, we are not asking for anything particularly for 
ourselves; we are asking to help our working poor families.
    Senator Conrad. Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Kent.
    Senator Lincoln.
    Senator Lincoln. Thank you, Mr. Chairman.
    What an incredibly important series of hearings that we are 
having here today on the Child Nutrition Reauthorization Act, 
specifically, the school lunch and breakfast program.
    I have to say that I am sure I am not the only Senator, but 
I am one of the few Senators who carries my shopping list in my 
pocket around here, and with twin boys who are in first grade 
now, and myself making somewhat regular visits to the lunchroom 
in the public schools that we attend, it is a critical issue 
for this Nation. If we truly, truly, truly believe that our 
children are our future, it must mean that everyone's children 
are our future.
    What a basic concept of providing a nutritionally sound 
meal to those who are not going to get it anywhere else. It is 
amazing.
    I have certainly been a long-time supporter of the 
programs, and I certainly appreciate the strong commitment to 
child nutrition that you on the panel as well as our chairman 
and our ranking member have demonstrated on these issues.
    Many people in this great country--and we realize how 
blessed we are--but they do not realize that hunger remains a 
very serious problem in the United States. Unfortunately, that 
is very true for my home State of Arkansas. We are unbelievably 
bountiful in our great State, but 2 years ago, the U.S. 
Department of Agriculture Food Assistance and Nutrition 
Research Program issued a report that ranked Arkansas as one of 
the bottom five States for food security and hunger. When we 
took that to our farm community, they were absolutely aghast. 
They did not have any idea that in all of what they produced 
our great State, we had a broad number of children across our 
State who were suffering from hunger.
    In spite of the incredible and sizable agricultural sector 
we have in Arkansas, almost 5 percent of households in Arkansas 
do not always have access to adequate food. I have been 
extremely involved with foodbanks and other means of getting 
food into our households, but without a doubt, in dealing with 
the children, the breakfast and school lunch programs are the 
most critical in providing these children the ability to meet 
their potential.
    I sent two little boys off to school today with a good 
breakfast, and I am blessed to be able to do that. To think of 
the mothers, particularly the single mothers, who find 
themselves in the situation where they cannot provide that 
incredible need that those children have before they go to 
school, and then to think that as they go to work, because of 
the meager income that they are making, they are all of a 
sudden making their children ineligible for a program that they 
know is absolutely vital to their well-being.
    The children's nutrition programs in our schools are key to 
eliminating hunger and ensuring the health and well-being of 
our young people. We all know that nutrition is an important 
determinant of health and well-being. We can also point to 
teacher testimonials and academic studies that demonstrate the 
further fact that children who eat a well-balanced meal, 
particularly a morning breakfast, perform better in the 
classroom. It is not rocket science. It is just basics. It is 
no great leap, I do not think, to suggest that nutrition 
programs contribute to long-term academic success, which pays 
great dividends in each student's future, not to mention our 
great Nation and not to mention health care costs and needs.
    It is an unbelievable difference that we have been able to 
see when we have been able to provide pediatric dentistry so 
that children can actually eat to get the nutrition they need.
    I just applaud all of you for being here and for your 
willingness to work with us in providing what is one of the 
most important components of a safety net that many of our 
disadvantaged families, who are working desperately to provide 
for their children, rely on to see them through the very 
difficult times.
    Mr. Chairman, particularly in a time of economic recession, 
it is critical that we look for ways to strengthen and broaden 
that safety net. You all are the ones responsible not only for 
making this program efficient, making it available, making it 
nutritious, but certainly working with us to meet all the 
different demands that we find ourselves in economically. To 
that, I just want to say how much I appreciate what you do.
    Again, having watched both my parents being involved in my 
education and watching in the public schools where I grew up 
the involvement of particularly our schools in a very low-
income area in the Mississippi Delta, and now to see in my own 
experience with my own family the needs that the schools are 
providing for with our children, it is just remarkable, and I 
hope we can continue to work with you to make sure that that 
happens.
    The Healthy Foods Program--again, exposure is so important. 
Watching my children as I am trying to expose them to good and 
healthy foods, encouraging them just to try a few things, and 
after about three or four meals realizing that they actually 
like something, is great.
    I want to ask Ms. Nece if you see in that fresh fruits 
program a difference between the older children and the younger 
children in terms of exposure, particularly as you introduce 
that program to older children who may or may not have been 
exposed at an earlier age. Do you see a difference there?
    Ms. Nece. We see a difference in each of the areas, and 
part of the difference is that in our school meal programs, we 
may not necessarily serve a whole piece of fruit in the same 
way as Senator Harkin's orange in the appearance of what it 
really is. One thing we are doing in this pilot is to serve an 
entire piece of fruit.
    I remember being in an elementary school classroom one 
morning where we served a whole fresh pear, and the students 
are saying, ``This is a brand new fruit.'' Then, we went down 
and got canned pears so they could see that it was the same 
fruit in a different form.
    It is that nutrition education piece that has been able to 
be linked with not only offering a variety at the high school 
level, but the most exciting thing is to see them actually 
choosing fresh fruits and vegetables over going to the vending 
machine for any other product that is in that machine. That is 
not 100 percent, and we would never expect 100 percent at this 
point in time in our environment, but to get to the 
participation where students are making that obvious selection.
    Senator Lincoln. Well, variety is so important. There is no 
doubt about that. Being able to provide that variety is 
critical for them to make those choices; there is no doubt. 
Also, the education is critical, so that they do know that that 
fresh pear is the same or relatively close to what they can 
also get in the lunch room.
    It is so interesting when your children come home from 
school and you ask them, ``What did you have in the lunch room 
today?'' and they talk about, ``Well, it would have been great 
if you had given me 50 cents before I left so I could have a 
cookie,'' but it is great to have the fresh fruits and the 
other things that are available to them. That is really 
wonderful.
    Well, again, Mr. Chairman, we have a great task ahead of us 
and that is to make sure--not just to say that we are going to 
nip and tuck and do whatever it takes--that is what we have to 
commit ourselves to doing in this country, and we should begin 
right here in the Agriculture Committee, and that is making the 
commitment that we are going to provide the nutritional needs 
that the future workers and the future legislators of this 
great country are going to get at a time when they need it 
most. I certainly think we can find the means the wherewithal 
to be able to do it. You all do it every day, and there is no 
reason we cannot here.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Lincoln.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    Mr. Chairman, I want to join in the thoughts of the 
distinguished Senator from Arkansas and the others who have 
spoken. This should not be a partisan issue. In 1999, the 
Minnesota legislature funded a program initiated by an 
Independent Governor, a Republican House, and a Democratic 
Senate, called Fast Break to Learning. That program provide 
school breakfast at no charge to all students at select 
elementary schools, setting up a study to see what the results 
would be. The results are obvious. This is not rocket science. 
This is common sense, Mr. Chairman.
    The first year results of the Minnesota study showed 
improved scores in standardized reading and math tests at Fast 
Break to Learning Schools compared to a control group of 
schools. Earlier studies at the University of Minnesota have 
also shown that you have decreased discipline referrals with 
kids who eat school breakfast. It is tough for kids to learn if 
they have empty stomachs. That is simply a reality.
    I support the healthy choices concept. There is a parental 
role in there somewhere. My 13-year-old daughter would take the 
carrots, and my 16-year-old son would take the cookie. Having 
those choices is important.
    My distinguished colleague from North Dakota raised the 
issue of budget, and that is a reality. I was Mayor of the 
capital city of St. Paul, elected in 1993 during times of 
economic recession, and we were faced with some difficult, 
tough times, gang summits, folks out of work, and we made 
choices. Folks at my rec centers came to me and said, ``Mayor, 
we have to put more money into those rec programs because kids 
are on the streets.'' Folks at my libraries said, ``Mayor, we 
have to get more money into these libraries because kids need 
to read.'' My police and fire people said, ``We have to get 
more money into public safety.'' In St. Paul, if we did not 
plow the streets when it snowed, I was in big trouble. We had 
all of that, and I will tell you that the path we took is that 
we kept a lid on taxes, and we enforced fiscal discipline, and 
in the end, I had more money in my libraries when I was done 
and more money in the rec centers and 18,000 new jobs and $3 
billion in new investment.
    We are all united on the purpose here, which is to make 
sure that kids can eat, that moms and dads have good jobs. The 
debate is simply how you get there, how do you generate 
economic growth.
    The reality that we face now is that all levels of 
government are facing very difficult times, and it is not just 
at the Federal level--it is at the State level. My State has an 
over $400 billion deficit. I worry, Mr. Chairman, about this 
stuff that we have to do. We have to make the commitment.
    I would ask the question--one of the keys to my success--
again, at the very local level, but you never forget where you 
came from, and you bring that to the table--we worked very 
closely with folks on the private side, particularly at a time 
when government was really struggling. We did a number of 
creative programs with the private side. Coca-Cola has a ``Step 
With It'' program, which is exercise and a whole range of other 
things. They have resources. They have resources, and we are 
struggling for resources, and I know there are choices to be 
made. Again, business is facing some tough times. We are in 
economic recess.
    I would raise the question as to the prospect of public-
private partnership, what role is it playing, how effective is 
it, and are there things that we can do to promote that to make 
it easier for you.
    Ms. MacDonald. We are working on some public-private 
partnerships particularly in the area of wellness and nutrition 
education. I am pleased that you raise that question.
    It is also not just the wellness and physical activity that 
we are working with them on but also nutrition education 
materials. I believe that in our proposal, I spoke about how we 
have materials available, but States and local jurisdictions do 
not have an infrastructure to deliver that nutrition education 
and those materials. We are hoping that the Congress will again 
join us in our public-private partnership and with you, see 
that we can get there.
    As a commitment to working with us, we have with us at our 
conference 160 members of industry. Our industry partners are 
key to the success of these programs. They understand clearly 
the link between healthy children and the effectiveness of 
their business. They would much rather be putting their money 
into research and development, production and equipment, than 
paying high health care costs for their employees, or 
substitutes when there is lost time when a parent has to go and 
pick up a sick child at school, or having to put money into 
remedial reading programs for their workers.
    We are actively engaged in those partnerships and welcome 
your cooperation as well.
    Senator Coleman. Thank you.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Coleman.
    Senator Miller.
    Senator Miller. Thank you, Mr. Chairman, for holding this 
hearing. I have no questions of this panel.
    I am sorry I am late. I have been listening to some of it, 
though, on the audio down in my office. I do not have any 
questions of this panel. I just want to say thank you for being 
here, thank you for what you do on a daily basis. I have 
grandchildren and great-grandchildren in the public schools of 
Georgia, and what you and your colleagues do around this 
country is very much appreciated.
    Thank you.
    Ms. MacDonald. Thank you.
    Senator Harkin. Thank you, Senator Miller.
    I will recognize the other Senators who have just shown up 
in a second, but I wanted to ask one followup question.
    I mentioned the Scientific American article. Most of the 
nutritionists, sciences, doctors, and health care folks I have 
spoken with, at the bottom of this new pyramid, at the very 
base of this, is ``daily exercise and weight control.'' As I 
mentioned earlier, 80 percent of our elementary school kids in 
America do not even get 1 hour of P.E. every week.
    Now, you might say to yourself, ``Well, that is not my 
department.'' I am wondering--I like to think about how we put 
things together and make a seamless system, and I am wondering 
if there might not be some connectivity between the school 
lunch and school breakfast programs and exercise.
    I am wondering if we might partner somehow with schools in 
doing this. Again, it has to be a carrot approach--I mean, it 
has to be something where we provide a benefit, more to a 
school if in fact they can show that they have an exercise 
program for their kids on a weekly basis and that they have a 
program for weight control and for exercise.
    I am just wondering if this is something that you have ever 
thought about or would you consider joining somehow in some 
demonstration programs of that nature.
    Ms. MacDonald. I am sure that you are aware that in 
October, there was a Healthy School Summit here in Washington, 
DC, chaired by the former Surgeon General.
    Senator Harkin. Very much so.
    Ms. MacDonald. At that conference, we brought together 
people from every State who are interested in physical 
activity, the school environment, and school meals. Teams were 
formed that went back to every State. They are currently 
working on action plans that do encompass, as you suggested, 
all the components of a healthy, whole child.
    We are working on that, and we would be very interested in 
any further discussions that you might want to engage in.
    Senator Harkin. I appreciate it. We ought to look at that.
    Senator Chambliss.
    Senator Chambliss. Thank you, Senator Harkin.
    I do not have any questions for this panel other than just 
a couple of comments. First of all, I do have a statement for 
the record that I will insert. I just want to thank you folks 
for the great work you do and for your lobbying efforts. I have 
heard from every school nutritionist in the State of Georgia 
over the last couple of weeks, and that is always good, because 
we like to hear from you. In our school system our 
nutritionists all the way down to the cafeteria workers are 
very important folks. My wife just retired after 30 years of 
teaching in an elementary classroom, and my daughter is a 
fourth-grade teacher, so they come home every night and remind 
me of how important nutrition is to their students.
    I thank you for the great work that you do, and we look 
forward to moving through this process and reauthorizing this 
very important bill.
    As Senator Miller knows two predecessors of ours, Senator 
Russell and Senator Talmadge, were primary motivators behind 
the School Lunch Program, and he and I are both very proud of 
that. We want to make sure that this program is strong and 
viable into the future. Thank you for the great work that you 
do.
    Senator Harkin. Thank you, Senator Chambliss.
    I now call on our former distinguished chairman of the 
committee, Senator Leahy.
    Senator Leahy. Thank you, Senator Harkin.
    I will put a full statement in the record.
    As I look around, I see a lot of friends in this room. I 
have worked on nutrition matters literally since the day I came 
here when, as many of you know, back in the eighties, when I 
was chairman of the committee, we put back the original name of 
the committee so it became the ``Agriculture, Nutrition and 
Forestry Committee.'' I have been pleased with that, and I 
would hope that we are able to reauthorize the program.
    I will be submitting a letter cosigned by a number of 
Republican and Democratic Senators hoping that there will be 
additional money in the budget for that. As Senator Chambliss 
has said, we do tend to hear from back home--I know I do--
almost every week when I am back in Vermont, somebody will stop 
me in the grocery store or on the street or elsewhere to talk 
about the school lunch program.
    Ms. MacDonald, you mentioned that reimbursement rates have 
not kept pace with inflation, especially because of the dietary 
guidelines. What kinds of changes would we get if reimbursement 
rates were raised specifically for the purpose of improving the 
nutritional quality of meals, something that Senator Harkin has 
raised a number of times--and before you answer, just so you 
understand my concern--you go to some school lunch programs, 
and they are really good, attractive, nutritional. Others, you 
have your choice between the gray glop or the green glop. I 
realize it is different where you are. Sometimes it is 
regional. Sometimes it is regional things--a Western meal might 
not be good for an Easterner, or a Southern meal might not be 
good for a Northerner, and back and forth. You have to improve 
the nutritional quality of the meals, but then you have to make 
them appealing to the kids. Otherwise, of course, they are 
going to run out--if they have any loose change or any money at 
all in their pockets, they are going to go somewhere else and 
get something that is not nutritional, and we lose an 
opportunity, one, to teach them good nutrition and set those 
habits, but also to make them healthier and, as every teacher 
will tell you, they are going to learn better.
    What kinds of changes would we see if reimbursement rates 
were raised?
    Ms. MacDonald. Those of us who administer the programs are 
committed to improving that nutritional quality of the meal. 
There are significant costs submitted in our statement, to 
doing so in terms of providing more variety of fresh fruits and 
vegetables, whole grains, and purchasing products that meet the 
dietary guidelines in their specifications.
    As you so correctly pointed out, there is a vast difference 
in programs across the country in terms of the support and the 
infrastructure that they have and the likes and dislikes of the 
students. You really need to give the directors the flexibility 
to write their specifications for purchasing what is appealing 
to the kids in that area.
    We all want to add more fresh fruits and vegetables, and 
with the transportation costs and availability you would see 
there is no argument among any of us in promoting that.
    Senator Leahy. I agree with that. I started a Farm to 
Family Program for farmers' markets to be able to use 
everything from WIC coupons to foodstamps. I go to a local 
farmers' market almost every Saturday morning back in Vermont. 
I love going there. I see everybody I have known from days when 
I was in grade school right on up--people I knew from the time 
I was able to walk. I have seen in this farmers' market and 
many others around our State a tremendous improvement--one, in 
the number of people who can actually sell their products 
there--they have a market--and people are now buying 
nutritional things. We do not grow oranges in Vermont, but 
there is a lot less of the potato chips and a lot more of the 
carrots and the beans and the fresh corn, peas, and so on. 
There are things that we can do, and it can be a win-win 
situation.
    Ms. MacDonald. I attended the Farm to School Conference, 
and it is a program that is wonderful. Many of our schools are 
already participating in that. It is an area that more and more 
of our members are excited about and partnering. Thank you so 
much for your leadership on that issue.
    Senator Leahy. Thank you. Mr. Matz has actually seen some 
of those with me.
    I apologize, Mr. Chairman. We have Secretary Ridge and 
Attorney General Ashcroft and Director Muller at the Judiciary 
Committee, and I will have to go back.
    Thank you.
    Senator Harkin. Thank you. Tell them that homeland security 
depends on healthy kids, too.
    Senator Leahy. There you go.
    Senator Harkin. Thank you all very much for being here. We 
will now move to our second panel. Again, through you, thanks 
to all the American School Food Service people all over the 
country.
    Ms. MacDonald. I will. Thank you so much.
    Senator Harkin. Mr. Greenstein, welcome back to the 
committee. You are no stranger here; every time that we have 
had in my memory any hearing dealing with food and nutrition or 
school lunches, school breakfasts, the WIC program, you have 
been our expert witness, whether it has been under Republicans 
or Democrats--again, another indication that this is truly a 
bipartisan issue.
    I thank you again for being here from the Center on Budget 
and Policy Priorities. Thank you for a lifetime of you work 
examining and analyzing our food programs of a broad variety, 
not just school but WIC, foodstamps, and everything else.
    Without objection, your full statement will be made a part 
of the record in its entirety, and again, you know the drill 
here--if you could summarize and hit the high points, we would 
sure appreciate it.
    Welcome again.

           STATEMENT OF ROBERT GREENSTEIN, EXECUTIVE 
 DIRECTOR, CENTER ON BUDGET AND POLICY PRIORITIES, WASHINGTON, 
                               DC

    Mr. Greenstein. Thank you very much, Senator and Mr. 
Chairman.
    My testimony this morning focuses primarily on one issue, 
and that is the need to reduce participation in the free and 
reduced-price school meals by ineligible children in a way that 
does not cause eligible children, eligible needy children, to 
lose benefits.
    My written testimony covers one other issue that I will 
just mention but not go into orally, and that is the importance 
of maintaining in the WIC program the competitive bidding 
requirement for the purchase of infant formula. This was 
initiated under President Reagan. It has been one of the most 
effective cost containment mechanisms in any health-related 
program. Without it, Congress would either have to appropriate 
$1.5 billion more in WIC each year to serve the same number of 
women and children or remove 25 percent of the people on the 
program from it. It is very important to maintain that.
    One of the most difficult issues you will face in the 
reauthorization this year involves this question of whether 
there is ineligible participation in the free and reduced-price 
meal program and if so, what to do about it. There are three 
questions that stand out: What do we know about the nature of 
the problem? What have been the results of efforts tried or 
tested in the past to reduce the participation who may be 
eligible, and how have those efforts affected eligible 
children? Third, what do we do?
    One possible response is to expand the verification of free 
and reduced-price meal applications. Currently, school 
districts are required to take a sample of 3 percent of the 
approved free and reduced-price applications, send parents a 
notice to verify the income reported, and if there is no 
response, to terminate the children.
    We have information on verification from three sources--
nationally representative demonstration projects conducted in 
the eighties, current pilots that USDA is running, and data on 
the verification procedures now in use in the program.
    Unfortunately, the one most striking finding that emerges 
is that attempts to use verification have run into a major 
problem. Large percentages of the families sent notices to 
provide pay stubs to document their income have not responded, 
and the children in the families have been terminated.
    Specifically, one of every three children selected for 
verification under the existing system and the current pilot 
project is terminated due to non-response. What makes those 
figures really disturbing is the data suggest that a very large 
share of the children who are terminated due to non-response 
are actually eligible. This was a major focus of the 
demonstration projects of the eighties and of a separate, major 
study of the verification process. In the study, 81 percent of 
the children who did not respond and were terminated were found 
to be eligible for either free or reduced-price meal. In the 
pilots, 86 percent of those who were terminated because they 
did not respond were found to be eligible.
    Now, these data are from the eighties. There are not 
currently more recent data, but the system has not really 
changed that much since then, and while the percentage of those 
terminated for non-response who are actually eligible may be 
somewhat lower today, it almost certainly is still very high.
    This raises serious concern about proposals to 
substantially expand verification until we learn how to change 
the verification process to bring non-response rates among 
eligible families down. In fact it was as a result of the very 
findings that I have just cited that the Reagan Administration 
rejected options in the 1980's for widescale verification and 
instead adopted the current system of a sample of 3 percent of 
the approved applications being verified.
    The studies from the 1980's found many non-responding 
parents when they were followed up with had no recollection of 
getting a notice telling them to provide verification; some had 
limited literacy and did not understand the notice; some were 
non-English-speaking.
    We have a very different situation here than in, say, 
foodstamps or Medicaid or welfare, where if you apply for a 
benefit, you end up meeting with a caseworker who sits across 
the desk and tells you what is provided--there is really no 
personal contact here. There is a notice sent, and in most 
cases, if there is not a response, there is no followup phone 
call. There may also be a stigma issue; some parents may not 
want to provide income stubs to their children's schools.
    Let me give you just a couple more figures about what makes 
this so difficult to figure out how to proceed. Let us suppose 
that Congress were to require that all free and reduced-price 
meal applications be verified. Let us suppose that the non-
response rate, now one out of every three, or 33 percent, were 
lowered to 25 percent, and let us suppose that only 40 percent 
of the non-responders were really eligible instead of the 80 
percent found in the earlier studies. These are optimistic 
assumptions that I am making. Under these optimistic 
assumptions, more than one million eligible low-income children 
would lose benefits. Under some less optimistic assumptions, 2 
million would.
    Compounding the problem is that eligibility for areas to 
participate in the summer food program, for poor schools to get 
more ample reimbursements in the school breakfast program, and 
for part of the reimbursement structure in the child care food 
program are all tied to the percentages of meals that are 
served free or at reduced price, which means that if we ended 
up instituting a system that lost lots of eligible kids, we 
would end up disqualifying, for example, lots of summer feeding 
sites from being allowed to continue in the summer feeding 
program.
    We badly need, I believe, a new round of rigorous 
demonstration projects to get to the goal that everybody on a 
bipartisan basis wants to get to. To the degree that there are 
ineligible kids in the program, we want to address it, but we 
want to do it without deterring the eligible kids.
    Now, what is the extent of the problem? Unfortunately, we 
do not know that much about this. When we hear what the error 
rate is in foodstamps or welfare or whatever, that comes from 
the States taking a sample of the participants and doing an 
extensive audit, and they determine an error rate. There are no 
comparable data available now on the school lunch program.
    The Food and Nutrition Service at USDA, facing these data 
limitations, has tried to do some other comparisons. They did 
one comparison using Census data that has now made its way into 
the media but is highly problematic. In this, FNS compared the 
number of children certified for free school meals in the 1998-
1999 school year, those certified by October 31, 1998, to the 
number of children with incomes below the income limits for the 
free meals in calendar year 1999.
    When they conducted this comparison, they found 
significantly more kids certified for free meals than were 
below the free meal income limit in the following calendar 
year, but there are two problems here. The first is that when 
FNS also did the same comparison but instead of looking just at 
free meal certifications and kids below the free meal income 
limit, they looked at free and reduced certifications combined, 
compared to kids below either the free or the reduced-income 
limit. There, the numbers closely matched.
    The second problem is more fundamental, and that is there 
is an inherent problem with comparing the number of kids 
certified for free and reduced-price meals in the fall of 1998 
to incomes for calendar year 1999. Unemployment fell in 1999. 
We know that poverty dropped significantly. More important, 
eligibility for this program is based on monthly income, not 
annual income.
    Now, Senators may recall that several years ago, we had 
this issue in the WIC program. FNS used the same set of Census 
data, and it seemed to show that the number of infants in WIC 
exceeded 100 percent of the number eligible. FNS was concerned 
that there were problems with this kind of a comparison, so it 
commissioned the National Research Council of the National 
Academy of Sciences to get experts to look into this, and the 
National Research Council reported in 2001 that using Census 
data on annual incomes to estimate the number of people 
eligible for WIC underestimated the eligible pool. The National 
Research Council developed a more accurate estimate, and when 
it did, the number of infants in the program fell below the 
number eligible. No longer was there any discrepancy.
    The same issues apply to school lunch in that it has the 
same rules for measuring income as WIC. It is monthly income, 
not annual income. In the past week, data have become available 
from the Census Survey that uses monthly income to compare the 
number of kids eligible for the meals in the very months in 
which the certifications are done, and much of the overage 
disappears when that is done.
    The bottom line is we do not have good data on the 
proportion of meal approvals that are erroneous. We know enough 
to know there is a significant issue here. It also is probably 
much less than these figures that are sometimes cited in the 
media based on the apples and oranges comparison of 2 months in 
the fall of 1 year to the next calendar year.
    Adding to the complexity of this problem is the fact that 
there are really two types of so-called errors here. One kind, 
which we really do need to be concerned about, is where the 
parent misreports the income or the school mishandles the 
application. The other kind of error is where the parent 
reported the income accurately, the school dealt with it 
accurately, the student was certified accurately in August/
September, the beginning of the school year, and during the 
course of the year, the parents were able to increase their 
earnings. Their income subsequently during the year may have 
moved from the free meal range to the reduced-price meal range. 
Technically, that is an error; that is part of the error rate.
    Most other major means-tested benefit programs are now 
moving to make children eligible for a 12-month period. The 
reason for this is most of the programs that have welfare 
office bureaucracies have found that you just cannot track the 
incomes of the low-income population from month to month. A lot 
of these people have low-wage jobs that do not have paid sick 
leave, so their hours of paid work fluctuate. The employer may 
want a different number of hours of work from them at different 
times. Child care arrangements can vary and can affect work 
hours.
    In the Medicaid program and the SCHIP program, States 
increasingly certify children based on their income at the time 
of application, and they are then eligible for 12 months, and 
at the end of the year, you check again.
    In foodstamps, this committee last year moved essentially 
to do the same thing for a 6-month period. The States can now 
determine your income for foodstamps, and your benefit is fixed 
for 6 months.
    Effectively, that is how the school lunch program works, 
too, but technically, in the Code of Federal Regulations, there 
is a regulation that says you are supposed to change the 
eligibility every month, whenever the incomes rise or fall 
above the limits. I asked the Agriculture Department a couple 
of weeks ago, Have you ever enforced that rule in the history 
of the program? They said, No, we cannot enforce it; schools 
cannot administer it. If the welfare agencies cannot do it in 
foodstamps and Medicaid, the schools cannot do it. That is 
another part of the error rate.
    What do we do? Let me finish quickly. The policy goal is 
that we want the certifications to be as accurate as possible 
at the start of the school year without losing eligible, needy 
children, and once children are certified, they should be good 
for the year.
    Now, how to achieve that goal? The problem is that no one--
not myself, not the Agriculture Department, not the schools at 
this point--no one really knows exactly what is the right mix 
of procedures to get ineligible kids out without losing lots of 
eligible kids. As I have noted, the things done in the past 
have lost lots of eligible kids.
    That is why we really need some major demonstration 
projects, which I believe will identify how to do that, and 
then we can institute that.
    Having said that there are four things we can do now. No. 
1, schools currently may directly certify for free meals 
children getting foodstamps or TANF cash assistance. That makes 
sense. TANF and foodstamps do pretty intensive verification. 
USDA studies have found extremely low error rates among the 
kids who are directly certified, but not everyplace does it. It 
would make sense to require direct certification be used 
everywhere except where it is administratively infeasible for 
schools to do. The President's budget includes that 
recommendation, and it is a very sound recommendation. In 
addition, it would make sense to give States the option to use 
direct certification from Medicaid and SCHIP in those States 
where the Medicaid or the SCHIP income limits are comparable to 
the free and reduced-price school meal income limits. Medicaid 
does verification. Let us piggyback on what other agencies 
already do. We know those kids' incomes from the verification, 
and if we go that route, we can reduce error rates without 
deterring eligible children.
    No. 2, I would recommend--and the School Food Service 
Association has a well-intensifying the verification of 
applications where the incomes are modestly below the income 
limits. There is a GAO study from the 1980's that found that 
when you target verification on the applications just below the 
income limits, you get more bang for the buck, and you find 
larger numbers of ineligibles, for reasons such as some 
families apparently mistakenly multiply their weekly wages by 4 
to get monthly income, and you really should multiply by 4.3. 
If you verify and multiply by 4.3, they move from the free to 
the reduced category.
    Third, we badly need to reform the verification procedures 
to reduce non-response rates among eligible families. My 
testimony has some specific suggestions. Do we know for sure 
that these things will work? No. We need to try them, we need 
to test them.
    Finally, children who are certified should remain eligible 
for the school year.
    I will just close by saying that the principle that 
underlies all of this is the Hippocratic Oath: Do no harm. No 
one would want to see efforts to reduce erroneous 
certifications result in large numbers of needy eligible 
children losing benefits with adverse consequences for their 
nutrition, their health, and their educational attainment.
    Thank you.
    [Theprepared statement of Mr. Greenstein can be found in 
the appendix on page 66.]
    The Chairman. Thank you very much, Mr. Greenstein. You have 
offered some very interesting observations, and we appreciate 
your thoughtful contribution to the hearing that we are having 
today. I have appreciated your advice and counsel over the 
years as we have gone through various appropriations bills and 
authorization efforts in this Agriculture Committee, too.
    Let me ask you how you would configure a demonstration 
project. You have talked about that we need massive 
demonstration projects--or some adjective----
    Mr. Greenstein. I would not say ``massive,'' no.
    The Chairman. What was it? It was a lot.
    Mr. Greenstein. Significant.
    The Chairman. Significant.
    Mr. Greenstein. Rigorous, carefully evaluated.
    The Chairman. Yes. How much would they cost? I wonder how 
big you are talking about, and what kind of demonstration 
project would you construct to try to find a better way of 
handling the certification issue?
    Mr. Greenstein. They do not necessarily need to be that 
big. What they really need to be is nationally representative. 
The current pilots that FNS is running in this area are not 
nationally representative. For example, the pilot where they 
are testing expanded verification does not have a single school 
in a major-size city in it. The reason for that is that those 
pilots were limited to volunteer schools. You do have an issue 
where, if you are testing improved methods of verification and 
you do find some ineligible kids and you do weed them out, the 
school gets less funding, and therefore, some schools may not 
want to volunteer to be in the pilot.
    What you have to do is--and this is not really a cost; this 
means you lose a savings in the pilot--you have to work out a 
system that holds the schools harmless from losing money during 
the demonstration. If you say to schools, ``Coming into the 
demonstration means you are going to lose Federal money,'' not 
surprisingly, we are not going to get a good cross-section of 
schools.
    The main cost of the demo tends to be for the evaluation 
contractor. Now, I do not know exactly what such a set of demos 
would cost. Is it $2 or $3 million, is it $7 or $8 or $9 or $10 
million, over a few years--I do not know. I suspect it is in 
that range.
    Let me say, Mr. Chairman, that the series of things that I 
have proposed here, I view--and if they are not, they could be 
made to be--as in the short run being roughly neutral in cost. 
From these demos, there ought to emerge treatments that, once 
instituted, could yield some not insignificant savings from 
reducing ineligible participation that you could plow back into 
the child nutrition programs.
    The difficulty is that at the present time, we do not know 
how to do the things that would get the sizable savings on 
reducing ineligible participation without losing lots of 
eligible kids. In fact, some of the proposals that one could 
look at now, you could get a big savings figure for it, and the 
majority of the savings would be losing eligible kids.
    What I am trying to propose here are some things that get 
us in a process through some immediate improvements and some 
demonstrations that lead policymakers to have the information 
they need to then take a second set of more substantial steps.
    The Chairman. One thing you mentioned in your suggestion 
list was schools contacting parents who turn in questionable 
information about income or whatever, or those who do not 
respond, to have them call----
    Mr. Greenstein. Yes, a phone call.
    The Chairman. Who is going to do this? The teachers have to 
do these applications; the administrators are busy doing other 
things. I wonder how we are going to impose new requirements on 
schools without figuring out what the implications are as a 
practical matter for them.
    Mr. Greenstein. That is an excellent question. There is no 
way to take further steps with regard to the over-certification 
issue, as it is sometimes labeled, without some additional 
administrative cost. My sense--and this is the way the 
Department is thinking as well--is that one would put some 
increment into the free and reduced-price meal at free and 
reduced-price meal reimbursement to cover the additional cost.
    There are two additional costs. One is if you verify even 
modestly more applications than the current 3 percent, you have 
some administrative costs from doing more applications. If you 
improve the verification process, the same is true.
    I was recently told that there was a meeting that I am not 
sure if it was the Congressional Research Service or 
Congressional staff had on this issue a few months ago where, 
interestingly enough, one of the participants was an individual 
from Virginia whom a Virginia school district contracted with 
to handle the verification of the school meals for them. Under 
this contract, the contractor did make a phone call to each 
family that did not submit verification when requested to do 
so. He reported to Congressional staff and CRS that when they 
made this phone call, they substantially reduced the non-
response rate. It did mean the contract cost a little more 
because they made these phone calls. It seems to me that if we 
are looking at a larger process, and we think that the larger 
process overall will produce ultimately some net savings--even 
if it produced no savings, I would argue if it were deficit-
neutral, getting it right would be worth doing--but over time, 
there ought to be net savings from a more accurate process 
where we weed out more of the ineligibles but we do it in a way 
that we do not lose so many of the eligibles.
    A way to think about it is that some of those savings go 
back into the costs for a better verification process.
    Having said that, this is another reason we need the 
demonstration projects, because no one wants to move forward 
with something that adds cost in the area. I should have said 
we need to find the most cost-effective, cost-efficient ways to 
reduce ineligible participation without losing eligible 
children.
    The Chairman. Thank you.
    Senator Harkin.
    Senator Harkin. Thank you, Mr. Chairman.
    Again, thanks, Mr. Greenstein, for the insights that you 
provide to us. On the four recommendations that you made, I am 
wondering--there is no recommendation here or really any 
observation by you on the prospect of a two-tier system. The 
American School Food Service Association testified that in the 
WIC program, anyone with incomes under 185 percent of poverty 
level is automatically in the WIC program without charge. They 
say the same income guidelines should be extended to the school 
nutrition programs. They point out that--and I am reading from 
Ms. MacDonald's testimony--``The reduced-price category is by 
far the smallest of the current school meal categories. Less 
than 10 percent of the meals served are served to children in 
the reduced-price category.'' She goes on to say, ``The 
reduced-price copay should be eliminated, and meals should be 
available at no cost to all children with family incomes up to 
185 percent of poverty.''
    Wouldn't that take care of all these demonstration programs 
and things that we are trying to figure on? You are talking 
about less than 10 percent.
    Mr. Greenstein. While we do not have good, precise data, 
there is reason to believe that a significant portion of the 
over-certification rate or over-rate--whatever term you want to 
use--consists of children who are eligible for reduced-price 
meals getting free meals, in many cases because the income 
rises a little over the year.
    Doing a single tier in my view would substantially reduce 
the error rate. I did not include it in my testimony for the 
reason that, as you know, our Center does a lot of work on 
budget issues and follows the budget process closely, and 
everything I am hearing indicates to me that this year's budget 
resolution will not provide any new money for child nutrition. 
In the absence of money, we wouldn't be able to move to a 
single-tier system--I do not know the price tag on that, but it 
would be a not insignificant budgetary cost--and presumably, if 
the committee did not get money allocated to it in the budget 
resolution to do that, it would not be able to proceed. That 
was the reason I did not include that here.
    I also wanted to quickly note, because I realized I did not 
fully answer, to Chairman Cochran, I certainly do not envision 
teachers having to do that extra work. One of the things that 
warrants some consideration, actually, is whether this whole 
verification process should be moved up to the school district 
level, the administrative offices at the school district, in 
which case they could either do it directly or perhaps contract 
it out. I certainly do not want to burden the school food 
service personnel or the teachers with doing this. I agree that 
that would not be wise to do.
    Senator Harkin. Somebody has to do it, and therefore, you 
have to pay someone someplace to do this.
    Mr. Greenstein. Yes, yes.
    Senator Harkin. That is another cost. I would have to take 
a look at that to see what the cost-benefit ratio of something 
like that might be. I mean, what are we chasing here? How much 
savings are we chasing? That is the question I have in my mind.
    Mr. Greenstein. Yes. We really do not know. That is the 
problem.
    Senator Harkin. We do not know that.
    The other question I have--and we have asked CBO for this, 
and we cannot seem to get an answer, and I thought maybe your 
Center might have some answers--is do they have any anticipated 
cost of what it would be to go to a two-tier system? We cannot 
seem to get estimates on it.
    Mr. Greenstein. Oh, that is an easy estimate for CBO to do.
    Senator Harkin. Well, how come I cannot get it from them? 
Do you have it? Do you know it?
    Mr. Greenstein. I do not have it. One can do a mechanical 
calculation where you simply take all of the current reduce-
price meals, and you multiply them by the difference between 
the free meal rate and the reduced-price rate. The cost is 
probably somewhat more than that to the degree that if the 
meals were free, between 130 and 185 percent more of the 
children would participate. What I do not know--and this is 
CBO's job--they will make an estimate of what the change in the 
participation rate will be, and that will be part of their cost 
estimate.
    I presume that if you have not gotten an answer, it is 
probably because this time of the year, CBO focuses on doing 
its reestimate of the President's budget, which comes out later 
this week, and then the budget committees give them a huge 
amount of stuff to do as they move toward budget resolution 
markup, and often, other requests get backed up.
    There is no question CBO can answer your question. I guess 
they just have not gotten to it yet.
    Senator Harkin. Thank you, Mr. Chairman.
    The Chairman. Senator Miller.
    Senator Miller. I do not have any questions, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Greenstein. It is a 
pleasure to see you and have the benefit of your testimony at 
our hearing.
    Mr. Greenstein. Thank you.
    The Chairman. Our final panel is invited to come and take 
your places at the witness table.
    We welcome Ms. Susan Borra, who is immediate past president 
of the American Dietetic Association here in Washington; Mr. 
Robert Kemmery, Jr., Executive Director of Student Support 
Services of Baltimore County Public Schools in Towson, 
Maryland; Ms. Melanie Payne, a child nutrition director from 
Opelika, Alabama; Mr. Jerry Kozak, who is President and Chief 
Executive Officer of the National Milk Producers Federation, 
from Arlington, Virginia, and he is appearing on behalf of the 
National Milk Producers Federation and the International Dairy 
Foods Association; and Mr. Dennis Heiman, who is principal of 
Muscatine High School in Muscatine, Iowa.
    Thank you all for being here. We have copies of the 
statements that you have provided us which we appreciate very 
much, and we would ask you to make whatever summary comments 
from those prepared texts that you would like.
    We will start off with Ms. Borra.

          STATEMENT OF SUSAN T. BORRA, IMMEDIATE PAST 
           PRESIDENT, AMERICAN DIETETIC ASSOCIATION, 
                         WASHINGTON, DC

    Ms. Borra. Good morning, Mr. Chairman and members of the 
committee. I really thank you for the opportunity to discuss 
the role that school nutrition programs can play in children's 
health.
    My name is Susan Borra, and I am a registered dietician and 
immediate past president of the American Dietetic Association. 
I am here today delighted to represent my fellow members of the 
American Dietetic Association, ADA, 67,000 of us, and we are 
food and nutrition professionals across the Nation.
    ADA is the largest organization of its kind, and we guide 
our work by the philosophy that we base our work on sound 
science and evidence-based practice in everything that we do.
    One in six of our members is employed in the public health 
setting, including school food service representatives here 
today, and they bring unique training and skills that integrate 
nutrition and safe food-handling programs into these public 
programs.
    This morning, I have been asked to do a little stage-
setting for you to discuss the issue of childhood overweight, 
which is certainly an important issue that has been identified 
here, and it is growing in prevalence.
    The problem of childhood overweight is influenced by a huge 
variety of factors. Therefore, when we start to look at 
solutions, we are really going to have to look at both 
environmental and individual approaches.
    Prevention of the problem we will all say is key, and 
school food and nutrition education programs can really play an 
important role in positively impacting the health of children.
    The American Dietetic Association has focused our attention 
on the issue of overweight and obesity, particularly on the 
subject of healthy weights for our children. As Senator Harkin 
mentioned, you have heard some of the statistics that are out 
there. It is at an all-time high in childhood overweight. The 
rates of tripled in school-age children since 1970. Sixty 
percent of overweight children have at least one adverse 
cardiovascular disease risk factor. Research shows that 
overweight children frequently become overweight adults. 
Looking at our entire Nation, we are spending more than $100 
billion in direct and indirect costs annually to treat obesity 
and associated chronic diseases in both adults and children, 
and these costs are indeed rising.
    Overweight and obesity is a chronic disease that occurs 
simply when people consume more calories than they expend. 
However, many factors--genetic factors, physiological factors, 
psychological factors, metabolic factors, and certainly the 
environmental influences--contribute to the imbalance of 
caloric consumption and energy expenditure. These facts are 
affecting when, where, and what we eat. These factors are also 
affecting the decline in physical activity and the increase in 
sedentary behaviors.
    Children of all ages are spending more free time in 
sedentary activities both at home and in school. The dietary 
intake of children is currently not meeting Federal nutrition 
guidelines. For example, fewer than 15 percent of school 
children eat the recommended servings of fruit, and only 30 
percent consume the recommended milk group servings.
    The fact that more than half the children in the United 
States eat breakfast, lunch, or a snack at school demonstrates 
the degree to which schools can support the development of 
lifelong balanced nutritional habits. In addition, as has been 
mentioned, while it is beyond the scope of the discussions 
today, schools also need to provide many more opportunities for 
physical activity for our children.
    Because of the complexity of this problem, prevention of 
childhood overweight will require a multifaceted approach. 
Prevention in childhood could reduce the incidence of chronic 
diseases such as diabetes and cardiovascular disease. ADA has 
invested in numerous projects, many in partnership with other 
organizations and groups, public and private, to understand 
more about childhood overweight.
    In qualitative consumer research, we found that people do 
not seem to connect the relationship between overweight and 
chronic disease. We found that children and adolescents are 
focusing on subjects like appearance, not necessarily their 
health. Their concerns about weight generally arise as a result 
of failed athletic performance, as in the case of boys, or 
dissatisfaction with their appearance, as in the case of girls. 
When children and adolescents are asked about what they try to 
do to change their eating behavior to lose weight, what they 
tell you is, ``Well, I will skip a meal,'' rather than modify 
their eating behaviors in a more healthful way.
    Our consumer research also shows that parents generally do 
not recognize the potential long-term health problems for 
overweight children. Parents hesitate to take action regarding 
their children's weight because they really believe their 
children will outgrow these problems, and they fear that their 
interventions may cause unhealthy eating disorders such as 
anorexia.
    Teachers consider it essential that parents support healthy 
lifestyles at home. However, they see little continuity between 
lessons on healthy living at school and lifestyle outside their 
classrooms.
    Clearly, children, parents, and teachers need resources to 
deal with the issues of healthy weight. ADA urges comprehensive 
strategies for reducing the number of overweight children with 
particular emphasis on family and community-based interventions 
that promote healthful eating practices and daily physical 
activity.
    School nutrition programs do offer a unique opportunity to 
positively impact the health of our Nation's children, and that 
is why the American Dietetic Association is committed to 
strengthen Federal nutrition programs. In the Child Nutrition 
Reauthorization Act, we will focus our attention certainly on 
enhancing nutrition education, looking at improving 
environments conducive to healthy food and beverage choices. We 
want to help in developing a comprehensive, behavior-based 
research agenda so we really know what we are doing. ADA 
believes that appropriately trained individuals such as my 
colleagues in ASFSA and ADA should be in decisionmaking roles 
that can transform these programs in ways to help students 
succeed in making food and beverage choices that will really 
contribute to a healthy eating pattern.
    Thank you so much for the opportunity to lay the groundwork 
on thoughts toward making the school nutrition programs an 
important resource in our national strategy focused on 
promoting optimal health and preventing overweight in our 
Nation's children.
    Thank you.
    The Chairman. Thank you very much, Ms. Borra, for your 
interesting testimony.
    Mr. Kemmery.
    [The prepared statement of Ms. Borra can be found in the 
appendix on page 77.]

        STATEMENT OF ROBERT J. KEMMERY, JR., EXECUTIVE 
         DIRECTOR, STUDENT SUPPORT SERVICES, BALTIMORE 
            COUNTY PUBLIC SCHOOLS, TOWSON, MARYLAND

    Mr. Kemmery. Thank you. Good morning, Mr. Chairman and 
members of the committee. Thank you for the opportunity to give 
testimony regarding the school lunch and school breakfast 
programs.
    I am Robert Kemmery, Executive Director of Student Support 
Services for the Baltimore County Public Schools. The Baltimore 
County Public Schools is the 23rd largest school system in the 
United States, serving 108,600 students.
    From 1991 through 2002, I was principal of Eastern 
Technical High School in Baltimore County. My 32 years as a 
public school educator have shaped the statement I will share 
with the committee. I would like to leave the members of the 
committee with three key thoughts.
    First of all, the Baltimore County Public Schools are an 
excellent representative of the challenges educators face--an 
enormous demand for quality education with limited resources.
    Second, with our No Child Left Behind Federal legislation 
and the expectation of a quality education for all students and 
high performance for all students, schools must form 
partnerships with businesses and their communities to achieve 
this laudable goal.
    Third, partnerships with beverage companies are a win-win 
situation for education and business if managed appropriately. 
Keep them a local decision by educators in consultation with 
their school community.
    If I can take you back 12 years when I was first appointed 
principal of Eastern Technical High School, I faced a situation 
that many principals faced across the United States. I went 
into a very economically challenged school community with a 
school that was sanctioned by the State in terms of not meeting 
the requirements of the Maryland State Department of Education 
High School Performance Report Card. Many of the areas that 
were requirements for graduation were at the ``unsatisfactory'' 
level.
    Being a new principal, one of the first things I needed to 
do was to get people to recognize that we did have some 
difficulty. When I turned to the Essex-Middle River-White Marsh 
Chamber of Commerce, they listened to our plea. They got 
involved with the schools. They helped us set up focus groups 
across the county to determine what is the purpose of a high 
school education, how can we work together to see that all of 
our students achieve at high levels. They were truly the 
catalyst that helped us reinvent a school.
    This school, being at the bottom performance level in 1991, 
became a Blue Ribbon School of Excellence and a United States 
Department of Education New American High School in 1997 and 
1999 with visits from the U.S. Secretary of Education and 
educators and business leaders from 45 States and 25 countries 
around the world.
    If it were not for these business partnerships, this would 
not have happened.
    The National Association of Secondary School Principals and 
the Carnegie Foundation released a major report in 1996 called 
``Breaking Ranks: A Systemic School Model for School Reform 
Across the United States.'' If you look at the major guidelines 
of this systemic school reform model, partnerships are at the 
heart of it--how do you build relationships to advantage 
students and a community?
    This school, through reaching out to partnerships, has a 
Lockheed Martin Applied Physics Lab, a Verizon 
Telecommunications Showcase and Distance Learning Lab, a 
Comcast Communications Center. There are over 100 corporations 
and business that work with this school to raise the 
opportunity and the future promise for each and every student 
in that school.
    Two years ago, I served as president of the Maryland 
Association of Secondary School Principals. In Annapolis, a 
bill was entered called Senate Bill 453, the Captive Audience/
Stop Commercialism in Schools Act. This particular bill 
mobilized educators from across the State of Maryland, and they 
went to Annapolis and said: Please, let this be a local 
decision. Let our school communities work together with 
educators to determine what type of relationships should work 
between business and schools.
    A lot of attention works around vending machines and 
business partnerships. In my estimation, the best way to foster 
these partnerships is to let the decision be made by those 
school districts and educators and partners. That allows 
choice; it allows choice for beverages like water, juice, 
sports drinks, soda and diet soda.
    Maryland already had a mandate on the books. If you are a 
school in Maryland, you cannot operate any vending machines 
until the last period of the lunch day. At my high school, that 
meant that at 1:30 in the afternoon, the machines were turned 
on. They were on electric monitors. That when school let out at 
2:15, if a student wanted to purchase a beverage, they could.
    The other part of this is that schools are their community 
lifeline. There were over 600 adults a year who were getting 
skills upgrade training courses at the school. When you factor 
in 45 interscholastic sports, drama productions, all the 
community meetings held, people running from one job to 
training programs, it was critically important to have these 
machines available.
    There is also a financial benefit to schools that derives 
from these machines, and I can tell you in the 11 years that I 
was principal at Eastern Technical High School, we derived 
$30,000 a year in profit from these machines.
    What did we do with the profit? We worked with our school 
community representatives, and we hosted 45 interscholastic 
sports teams. We also had drama productions. I remember 
purchasing shoes for students who were in need, students who 
could not afford to go on field trips. That is the only pot of 
money that principals have across this country--and I am 
talking about secondary principals--that is discretionary, how 
you can help people go forward. We did not compete with the 
school lunch program. We made possible educational 
opportunities. We were really supporting the physical education 
activities, because when 55 percent of your 1,375 students are 
playing interscholastic sports, that is the kind of activity 
balance and moderation--you need to have healthy young people.
    I would ask you to please keep this a local decision. The 
power of partnerships is the power to reach out to one another 
and do what is best for our students.
    In my remarks which you have, I also share with you a copy 
of a 16-page color brochure on Eastern Technical High School. 
If you look at the second page, you will see former U.S. 
Secretary of Education, Dr. Riley, who visited the school; our 
state superintendent, Dr. Nancy Grasmick; our former Governor 
Parris Glendening. This school became an economic catalyst for 
revitalizing older neighborhoods throughout the State, and we 
cannot afford to have any kind of limitations on that power to 
hold hands together with partners, whether business, whether 
higher education, whether community agencies, to serve our most 
valuable resource--our students.
    Thank you.
    The Chairman. Thank you very much, Mr. Kemmery.
    Ms. Payne.
    [The prepared statement of Mr. Kemmery can be found in the 
appendix on page 88.]

 STATEMENT OF MELANIE PAYNE, CHILD NUTRITION DIRECTOR, OPELIKA 
                 CITY SCHOOLS, OPELIKA, ALABAMA

    Ms. Payne. Thank you for inviting me.
    I was asked to come and share a little bit about what our 
school system is doing in Alabama.
    Opelika, Alabama is a small city of about 24,000 people. 
Opelika City Schools has an enrollment of 4,500 students with 
approximately 63 percent free and reduced. Our area is 
predominantly blue-collar industrial but located 7 miles from 
the educational community of Auburn University.
    Our school system is operated along business principles 
much like a corporation. It has long been our policy to use our 
funding wisely to educate every child without parents being 
constantly asked for donations or funding. We have never 
allowed vending machines in our schools.
    Our city supports our schools financially with an extra 
annual allocation of $1.7 million. We committed some of those 
funds to our schools to eliminate fundraising by students.
    Our child nutrition program is not-for-profit but self-
supporting. We have a closed campus policy, and our program is 
not competing with school stores or school vending machines. 
Therefore, we expect nutrition to be the focus without snack 
food sales to balance the budget. Participation is 90 percent 
systemwide for lunch and 33 percent for breakfast. Our program 
is financially sound.
    When USDA offered the option in the early 1990's to serve 
meals based on nutritional standards for students rather than 
food groups, our child nutrition program adopted NuMenus. We 
turned off our fryers and purchased steamers. We did intensive 
training for our cooks to help them learn to cook with spices 
instead of the traditional Southern ham and bacon seasoning. We 
served more fresh fruits, but our fresh vegetables were limited 
to salad bar-type items because of the time involved in 
preparation.
    Two years ago, we discovered the New North Florida Farmers 
Cooperative. The coop carries liability insurance and requires 
their members to take classes on use of pesticides. Working 
through the coop gives us a level of quality assurance that we 
would not have buying from a farmer off the street.
    They pre-process fresh collards, peas, butter beans and 
sweet potato sticks in season. We now offer this variety of 
fresh vegetables among our other offerings one or two times a 
month. We hope to continue to expand these offering as more 
small farmers join the coop.
    Our appeal to parents is that we offer their children two 
nutritious meals each day with numerous choices. If they will 
encourage their children to eat at school and eat a variety of 
what we offer, they can feel less pressured when their evening 
meal is a higher-fat choice. We still serve pizza and 
hamburgers several times per month. We do not serve any one 
food every day. Students can buy any regular item on the line a 
la carte. Ice cream and a noncarbonated sports drink are the 
only special a la carte items we ever offer. We have justified 
the ice cream choice as a means to get students to consume more 
calcium, because so many do not drink milk.
    The Child Nutrition Program in Opelika has the support of 
the administration, the faculty, and the parents. We do not 
have to compete with anyone for the food dollars.
    Convincing the adults in schools can be just as difficult 
as convincing the children. The tremendous rise in Type 2 
diabetes among children is staggering. Schools cannot fix all 
problems, but they do hold their share of blame on this issue 
when students have high-fat, high-sugar foods available all 
through the day.
    Schools are contributing to the obesity issue. Schools 
provide students more of their meals and snacks during the 
school year than they get at home. The school environment as a 
whole must be accountable for what they feed children. Opelika 
City Schools recognized our responsibility about 10 years ago 
and began the movement to get where we are today.
    Child feeding programs are part of the problem, but have 
the least control to fix them. Most of my colleagues would 
prefer to feed children healthy choices. Economics has made 
this virtually impossible. Many kitchens were designed with 
fried foods as the focal point and do not have the equipment to 
steam fresh vegetables. Many students have never been exposed 
to a fresh, cooked vegetable. They only know fried. Change will 
have to be made with a sound plan and will take a great deal of 
work from all areas of education. It will require commitment 
and creativity. Most important, it has not been an easy 
transition for us and will not be easy for anyone else.
    Many schools rely heavily on vending to pay for everything 
from supplies to club activities. Removing vending and high-fat 
snack foods from cafeterias while allowing school stores to 
continue to sell those products will bankrupt most child 
feeding programs.
    Opelika City School system approaches every area of 
education with the child's well-being first. Our child feeding 
program teaches nutrition by example and is the child nutrition 
program. We do not believe that offering students pizza and 
fries every day for lunch supports the nutrition education 
information being taught in the classroom.
    Our goal is to always support education. Approaching child 
feeding from a child nutrition perspective requires rethinking 
most longheld beliefs about what children will and will not eat 
and requires us to be the adult when it comes to balancing what 
is popular versus what is nutritious. That works in Opelika, 
Alabama.
    Thank you.
    The Chairman. Thank you, Ms. Payne, for your interesting 
testimony.
    Mr. Kozak, please proceed.
    [The prepared statement of Ms. Payne can be found in the 
appendix on page 92.]

         STATEMENT OF JERRY KOZAK, PRESIDENT AND CHIEF 
          EXECUTIVE OFFICER, NATIONAL MILK PRODUCERS 
FEDERATION, ARLINGTON, VIRGINIA, ON BEHALF OF THE NATIONAL MILK 
                 PRODUCERS FEDERATION AND THE 
             INTERNATIONAL DAIRY FOODS ASSOCIATION

    Mr. Kozak. Mr. Chairman, I am Jerry Kozak, president and 
CEO of the National Milk Producers Federation. Today I am 
testifying on behalf of both National Milk, which represents 
producers, and the International Dairy Foods Association, which 
represents processors. Greg Frazier, senior vice president of 
IDFA, is in the audience with me.
    Our unity on this issue reflects the critical importance of 
child nutrition programs for the dairy industry.
    I want to acknowledge the hard work and dedication of all 
the people in this room, especially the American School Food 
Service Association. I have been married to an elementary 
teacher for 30 years, and if I did not get that in, I would be 
in big trouble when I got home.
    Let me discuss the programs and the national commitment to 
offer our young people healthful choices and a fair start 
toward lifelong good nutrition. Milk is an essential part of 
that commitment.
    The child nutrition programs have strong public support for 
several reasons. Fundamentally, almost all of us would agree 
that they are the right thing for society to do. We recognize a 
responsibility to give children a fair start in life, 
nutritionally and otherwise. The programs have an excellent 
track record, as all members of this committee know, and child 
nutrition programs encourage our children to develop good 
dietary habits not just at lunch but throughout the day and 
throughout life.
    Unfortunately, budgets for these programs have not kept up 
with inflation over the years, and we believe additional 
budgetary resources are necessary. Funding constraints can 
create a vicious cycle, discouraging innovation and 
improvements in food quality and service. In turn, that may 
drive children away from these programs.
    We know that participation in school meal programs has been 
stagnant or declining. Meanwhile, the programs face stiff 
competition. This competition might be the fast food restaurant 
down the road or the vending machine down the hall. I am not 
condemning either one, but the studies do show that the 
children who participate in school meal programs are better-
nourished than those who do not. Like most of you, we believe 
that children learn better when they eat right, so it is in our 
interest to have more children participating.
    Milk has always been central to the child nutrition 
programs, right from the beginning in 1946, when the School 
Lunch Program was initiated. Milk is a marker for a healthy 
diet. It is the best answer to our children's chronic calcium 
deficiencies. More than two-thirds of teenage boys and nearly 
90 percent of teenage girls do not get the recommended amounts.
    Milk is much more than calcium. It is also an important 
source of phosphorous, potassium, and many other nutrients. We 
are learning more about milk's benefits all the time. There is 
emerging evidence that milk is also an important solution to 
our Nation's obesity crisis. Several studies show that dairy 
consumption is inversely related to obesity and may help reduce 
the risk of Type 2 diabetes and cardiovascular disease.
    Yet trends in school milk consumption have not been 
encouraging. Our industry needs to do a better job of making 
milk attractive to children. Last year, the National Dairy 
Council and the American School Food Service Association 
sponsored a pilot test in 140 schools involving 100,000 
students. The idea was to see whether children would drink more 
if they had a better product. That meant additional flavors 
like strawberry, attractive plastic packaging, keeping milk 
cold in new and better coolers, and offering milk through a la 
carte and vending sales.
    The test was a tremendous success. Children in fact did 
drink more milk. Sales were up 15 percent in elementary schools 
and 22 percent in secondary schools. There was more. 
Participation in the school meal programs went up also by 
nearly 5 percent in secondary schools. That is important 
because it means that more children will get the benefits not 
just of milk but other healthy foods in the lunch program.
    If we could improve milk in the same way nationwide, 
participation in the school meal program could grow by nearly 
half a million children. More than 2 million children who 
already eat in the cafeteria but do not drink milk would become 
milk drinkers. Potentially, these 2.6 million children would 
reap lifelong health benefits. Their health care costs would 
decline as much as $1 billion a year.
    Mr. Chairman, the entire dairy industry, both producers and 
processors, believes that Congress should use these and other 
successful models to improve child nutrition programs. First, 
Congress should promote more consumption of milk in schools by 
providing incentives to schools that upgrade the quality of 
milk. Schools should be able to do this by adopting improved 
standards of the type that I described as well as finding other 
ways to increase consumption.
    Second, Congress should provide more opportunities for 
commercially branded milk in more sales venues throughout the 
school. Placing these products alongside milk in the school 
lunch line is one example.
    Third, Congress should reject a tax on milk's role in the 
child nutrition programs. The statutory requirement to offer 
milk in our schools is fundamental and should remain in place.
    Finally, Congress should assure that schools that want to 
may offer milk any time, anywhere on the school premises and at 
any school event, regardless of any other contractual 
arrangements.
    These four items are priorities of the National Milk 
Producers Federation and the International Dairy Foods 
Association. We developed them together. We would like to work 
with this committee to achieve those.
    We are proud of our industry and the nutritious products 
that we make and sell. We support you in trying to give all of 
our Nation's children a fair start--an opportunity to make 
healthy choices. The work you are doing on this committee is 
vital to our children's well-being, and we would like to help 
you in any way we can.
    Thank you.
    The Chairman. Thank you, Mr. Kozak, for your testimony.
    Mr. Heiman.
    [The prepared statement of Mr. Kozak can be found in the 
appendix on page 95.]

   STATEMENT OF DENNIS J. HEIMAN, PRINCIPAL, MUSCATINE HIGH 
                    SCHOOL, MUSCATINE, IOWA

    Mr. Heiman. Thank you.
    First, I am honored to be the only active principal here. 
It is quite a thrill.
    As I enter the building by 7 a.m., I say hello to the head 
cook and the head custodian, and therefore I know that 
everything is going well. If I am not there, they wonder what 
is wrong.
    We are at the secondary level, a high school of about 2,000 
students, and our cafeteria manager sent along a Valentine's 
Day card from the kids in the building. She received about 30 
of these, and I know the elementary cooks received quite a few 
as well. This is for the fruit and vegetable program, and it 
says ``Thank you tremendously.''
    As you establish priorities and funding, I understand this 
committee has a difficult task; but as a high school principal, 
I also understand the difference between my making a 
recommendation and you making a decision, so I respect you for 
that.
    With all said, feed the children. You have brought in 
numerous nutritional experts, you have heard testimony from 
cooks, doctors, and other experts in regard to energy, 
lifespan, and healthy living. I am here to tell you about the 
experience and the growth that Muscatine High School 
accomplished through this pilot program.
    At first, we too looked at solely the nutritional aspects 
of it, trying to blend the natural sugar high with academics, 
striving to have our ITEDs, or Iowa Test of Educational 
Development, soar so that we could meet the No Child Left 
Behind requirements.
    When we should feed the child was the question was 
approached. After gathering all the data, we simply asked our 
customers--our students--when should we feed you, and they said 
when we are hungry--mid-morning. That made sense to us.
    We chose to feed the kids at 10 a.m. during our Channel One 
time. Channel One is the equivalent of CNN, or about 16 minutes 
of teenage news worldwide.
    You have heard of the nutritional value, but I want to 
speak to you about the unintended consequences of this program 
that far outweigh--unfortunately or fortunately--any of the 
nutritional value.
    Our student-teacher camaraderie grew. Imagine being in a 
classroom with one of your teachers and having the teacher 
explain his likes and dislikes in fruits and vegetables and 
why. The teacher is seen as a more human person. The children 
understand. I have heard more friendly conversations with 
faculty and students than at any other time in my 30 years of 
being an educator.
    I thought it was interesting 1 day when we had tangerines, 
and the teachers said, ``No, these are not small oranges. These 
are tangerines.'' The kids had never had things like that 
before. Explaining the difference between broccoli and 
cauliflower was interesting.
    Probably the No. 1 hit in our school is either the fat-free 
caramel apples or the fat-free French dressing with carrots. We 
do have a wide range. The student camaraderie has grown 
tremendously.
    On peer acceptance, some of the students who aid in the 
delivery of the food have special needs. This provides the 
children with special needs an avenue never before entered into 
at the high school. They received a position of respect. They 
have been talked to by students who normally would not talk to 
children with special needs. We have regular education students 
deliver, through severe and profound, to our behavioral-
disordered, and those children have gained the self-respect 
that was not known to them before.
    On team-building--how to deliver, hand out, and collect the 
remains of nearly 2,000 pieces of food in 100 locations caused 
a major building involvement. Cafeteria workers, teachers, 
custodians, administration and students--yes, everyone--worked 
closely together to solve the problem. Plastic grocery bags 
were brought in from home, and teachers brought a towel from 
home with a spray bottle to clean up afterward. The kids helped 
to solve the problem, and the problem was solved with no 
expense, which is always nice.
    On peer pressure--occasionally, a new food is not well-
received. My personal choice of not-well-received would be the 
trail mix, but other kids did not like the banana chips or, 
unfortunately, the dried cherries from Michigan--but we tried 
them. It is a good thing the Senator left. Sometimes, this 
unfavorable food was found in the hallways or in waste cans. I 
simply made one short announcement: If the mess continues, the 
program will cease. If you do not want the food, trade with 
someone, save it for later, eat it at a later time. The mess 
disappeared. Students once again solved the problem.
    In large schools such as ours, our children might not even 
know people in their own classes. They may know them by their 
first name, alone, and ``They are in my physics class.'' This 
gave the children the opportunity to talk, trade food, listen 
to each other--``Oh, I have had that before--it is good--I'll 
trade.'' It removed all the levels of social/economic, ethnic, 
and academic barriers.
    What I just described is now being pushed as character 
education--understanding, caring for, and working with others 
to solve common problems.
    In another light, this program may be better than the 
proposed tax cuts. The program places money in local control, 
stimulates local economy, and eliminates the wide social/
economic disparity of delivery. Everyone at Muscatine High 
School, from the principal to the lowest social/economic child 
in the building, receives the same benefit at the same time in 
the same manner.
    To outdo the milk person, my wife is a kindergarten 
teacher, and I have been married for 32 years, and her building 
also has a free and reduced program as well as a fruit and 
vegetable program. Her building is over 50 percent free and 
reduced. If her children did not have this fruit, they would 
never experience it. It is crucial for them. They also receive 
the same unintended consequences.
    I have heard today and I read an article that nearly 25 
percent of people who receive free and reduced lunches do not 
qualify. If $100 is keeping children from eating, why? This is 
America.
    As we grew, our parents and grandparents taught us that we 
were never really accepted into a home until we were offered 
food or beverage. You have made each classroom a warmer, more 
welcoming educational environment. I would like to thank you.
    I came here to speak of food and told you that the program 
that you endorse has crossed all aspects of education and has 
made our school a better place.
    Two other unintended consequences--we have removed the 
candy machine; our sales had dropped 48 percent since we 
brought in the fruit and vegetable program--and with the help 
of our Pepsi dealer, we put in a milk machine. We need more 
milk because the biggest problem in the four schools I visited 
in the State of Iowa is that we cannot keep supplied with the 
bottled milk to put in the milk vending machine.
    Thank you for your time, and please continue and expand the 
program.
    [The prepared statement of Mr. Heiman can be found in the 
appendix on page 101.]
    The Chairman. Thank you very much, Mr. Heiman, for your 
interesting testimony. I am very impressed with what you have 
told us about what you do at your school and the successes you 
have had in bringing high-quality nutritional foods to the 
students. It is a model that seems to me worth emulating all 
around the country. I hope there is some way to disseminate 
that information so that other schools can hear of your 
successes and try to figure out how they can apply these same 
techniques in their classrooms and in their schools.
    I am not just talking to you because you are a principal, 
although I do have a partial attitude toward school principals. 
My father was one for his entire career, later as an 
administrator of the county system, but most of his career was 
spent as a high school or secondary school principal, 
consolidated school principal. I share the challenges--I shared 
them growing up--that you are faced with getting good workers 
in the cafeterias and the lunch rooms and getting staff members 
to do the best possible job they can delivering these meals in 
a way that the children will appreciate them and also profit 
from them.
    One thing that we have some experience with here is 
providing authority to the Department of Agriculture to 
disseminate surplus commodities or commodities to schools 
around the country, and I just wonder what your experience has 
been with that. I am going to ask each one of you who is 
involved in the school programs what your impression is and any 
suggestions for improving that distribution program.
    Mr. Heiman, I will start with you.
    Mr. Heiman. I will let someone else start.
    The Chairman. Ms. Payne, do you have any thoughts on that?
    Ms. Payne. I have been in my position for 17 years, and 
there has been a great deal of improvement in the delivery of 
commodities. This year, the fresh produce is fabulous. It is 
getting to us on time, and it is getting to us in high quality. 
We are very glad to get it.
    The Chairman. That is great.
    Let me ask you, Ms. Borra, about the comments you made 
about getting children to appreciate the nutritious foods that 
are made available. Sometimes it is difficult to get students 
to eat them, much less taste some foods that they are not 
familiar with. Do you have any thoughts about techniques that 
can be used by school food managers or others to encourage 
students to try new things and to eat nutritious foods?
    Ms. Borra. Certainly the availability is a big key on that, 
to make sure those types of foods are available. I believe 
research shows that it could take anywhere from three to ten 
tries for someone to actually incorporate a food into their 
lifestyle. It is not just a one-time shot in most of these 
cases if you are talking about food behaviors.
    I would like to comment on Mr. Heiman's program. That is 
the best nutrition education I have heard of in terms of 
actually having the opportunity to work with the food and be 
with the teachers in the classroom. I am sure that in that 
environment, a lot of foods were tried that were probably never 
tried before, so that those types of opportunities would 
certainly be helpful.
    The Chairman. Thank you.
    Ms. Payne, I appreciate the success that you have had at 
your school, too. It is heart-warming to hear that story and 
the progress made in that district. In addition to providing 
nutritious foods to your students, do you offer any education 
classes or instructional opportunities for the students as 
well?
    Ms. Payne. We did a survey 3 years ago and found that less 
than 10 percent of our students knew how many grams of fat they 
should have a day, how many calories they should have a day at 
the middle school and high school levels. I went back to the 
school administrators--I am not an educator; my background is 
business and nutrition--so I went back to the school 
environment and asked how can we do something about this.
    We have added a kindergarten program working with 
Cooperative Extension Service. They have a program called 
Nutrition Education Program, and they provide a lot of things 
that children can take home, stickers, that type of thing. They 
could not get to all of our kindergartners, and in Opelika, if 
you do something for one classroom, you do it for every 
classroom in the system in that grade level. We had the 
extension service come in and train our kindergarten teachers. 
Now, every kindergartner has nutrition for 10 days in the 
spring. They go to a farm, they eat fresh vegetables and fruits 
in the classroom and do lots of other hands-on things with 
fruits and vegetables, including planting something.
    We now plan when that first group of kindergartners reaches 
fifth grade to have a fifth grade program, because that is when 
the educators told me that we needed a backup. We use some of 
our nutrition education money in child nutrition to pay for 
supplies for the teachers, and my secretary runs copies for 
their worksheets; I go out and buy the dirt for their planting 
and take it to them. I had to justify that to the auditors when 
they came.
    The Chairman. I hope you did not get into too much trouble.
    Ms. Payne. No, not too bad--local auditors.
    The Chairman. Mr. Kozak, I was interested to hear your 
observations about your pilot program to increase consumption 
and make the consumption of milk more attractive to students, 
that different ways of packaging and flavoring can increase 
consumption. You talked about that Congress should learn from 
this and provide incentives to schools that do this kind of 
thing. Why can't the industry do a better job of that itself? 
Why do you need Congress to provide incentives?
    Mr. Kozak. It is a good question, Mr. Chairman, and it is 
one of those areas that we are working cooperatively as we did 
in the school milk pilot test program that was funded by the 
industry. It has become apparent with inflation and the low 
margins that milk processors have that it is critical to make 
up some of the additional money to provide these extra 
products. There is a commitment on behalf of our industry, but 
we think it is also not practical in a number of school 
districts where the reimbursement rate is not sufficient.
    The Chairman. Mr. Kemmery, it was interesting to hear about 
your success in the Baltimore area schools with the secondary 
education folks. Are there elementary students at this school, 
too, or are you just involved in the secondary?
    Mr. Kemmery. It is grades 9 through 12, Mr. Chairman, 1,375 
students. The way our school system is set up, there are 102 
elementary schools, 38 middle schools, and 24 high schools in 
the school district.
    The Chairman. Do the same kinds of programs exist in the 
elementary schools as well as the secondary schools, or was 
this unique to the secondary school level?
    Mr. Kemmery. Basically, there is a prescribed health and 
nutrition curriculum that goes throughout the K through 12 
program, and at the high school level, the program is a 
required course for high school graduation with a number of 
units in healthy living and nutrition. That is true of the 
entire school district.
    If you are referring to some of the particular programs at 
Eastern Tech, it is a magnet high school with a lot of 
business-industry partnerships to prepare students to go into 
engineering, allied health careers, computer-assisted drafting 
and design. It engendered a lot of support because of the 
nature of the school.
    The Chairman. It was a unique opportunity to try these 
innovations.
    Mr. Kemmery. Yes. Yet it was critically important to have 
them come to the table and say if we are going to remain 
internationally competitive and have a world-class work force, 
we have to raise the bar, but we have to help you do that. In 
other words, there are things that we can bring to the table in 
terms of human resource help, not just financial but human 
resource help, to ensure that there is a quality educational 
program being delivered.
    The Chairman. Thank you very much.
    This panel has really done a good job for me personally in 
understanding some of the new things that are going on and 
innovative ways of approaching the challenge.
    Senator Harkin.
    Senator Harkin. Thank you, Mr. Chairman.
    I too want to join in that accolade for this panel as a 
whole, and I have just a couple of questions.
    Ms. Borra, please give the committee your views on the U.S. 
Dietary Guidelines as they exist now and the food pyramid 
currently in place. It has been in place for about 30 years at 
the present time. Could you define what is the ADA's role in 
revision of the guidelines and the food pyramid?
    Ms. Borra. Thank you. I had the feeling when you were 
pulling the magazine out that you were looking at that 
question.
    Yes--the American Dietetic Association is on record 
supporting the work of the Dietary Guidelines and the food 
guide pyramid. We have been active observers of the process, 
and the Department set up an external review board that, 
actually, many of our members have served on those committee 
structures, not representing ADA but certainly representing 
their scientific expertise. Currently, the process that is in 
place to look at the current science and update the guidelines 
accordingly is in good shape.
    The views in that magazine certainly represent another 
scientific approach to things. There will be the convening of a 
group I believe this year that goes into place to review the 
science behind the Dietary Guidelines this year so that 
possibly some of those considerations will be taken into 
account.
    We do use the food guide pyramid as a teaching tool, as an 
approach to communicate this important information to 
consumers, so we need to have some central guidance to work 
from. It is really critical that the best science go into that 
food guide pyramid and that we continually have it updated and 
appropriate to the science.
    Senator Harkin. Aren't you a certified dietician?
    Ms. Borra. Yes, I am.
    Senator Harkin. Well, the old food pyramid has at the base 
bread, cereal, rice, and pasta, 6 to 11 servings. Do you agree 
with that?
    Ms. Borra. Yes. The guidance to have that many servings--
you have to look at what they talk about as a serving. A 
serving of grain is not the bagel that you see in the market 
today; it is probably one-quarter of that bagel. That when you 
look at what servings they are talking about, the quantities 
will come out to devise a healthful diet.
    Senator Harkin. OK. You feel that you are consulted and 
that you are involved with both USDA and Health and Human 
Services, who share this jointly, in developing new guidelines?
    Ms. Borra. We have provided input and testimony to each of 
the processes that have gone on every 5 years.
    Senator Harkin. Do you feel the questions that were raised 
not just in this article but by Mr. Willett and others are 
adequately being addressed?
    Ms. Borra. This new committee will have some of that 
research on their table to look at, to say what does this mean 
and what do they do with it. However, the dietary reference 
intakes, the National Academy of Sciences has just released a 
report that puts the concept that the guidance in the food 
guide pyramid meets the National Academy of Sciences guidelines 
as well, currently.
    Senator Harkin. We seem to have a problem. We talk a lot 
about nutrition education. When I was a kid, we actually had 
nutrition education in school, plus we had exercise, which we 
do not have today. We do not have either one. We do not have 
exercise or nutrition education in our schools. About the only 
nutrition education that kids get today is the advertising they 
see on television. Of course, with the billions of dollars that 
different companies have to advertise their products, this is 
what kids get. This is their nutrition education. If you see it 
over and over and over again, well, it must be all right to 
consume these unhealthy foods every day. It does not say 
moderate your intake. I have never seen a McDonald's ad yet 
that says McDonald's now and then is OK. They would like you to 
eat two a day.
    Kids get that from the earliest age, and that is really 
their nutrition education. I just do not know how you compete 
against that unless we have something in our schools that can 
actually compete against that.
    Ms. Borra. I could not agree more.
    Senator Harkin. I just do not know, and I throw that out.
    Ms. Payne, thank you for very uplifting testimony. As 
someone said earlier, that what you have done is ``awesome.'' 
It is amazing, just amazing. You did this 10 years ago--is that 
what you said--you started it 10 years ago?
    Ms. Payne. Yes. We adopted NuMenus when USDA allowed us to 
go by nutrient standards rather than food groups.
    Senator Harkin. You have no vending machines in any of your 
schools?
    Ms. Payne. We have never had vending years in the 17 
years--we have a board policy against vending machines. We do 
not have those vehicles deliver to our buildings with the 
advertising on them.
    Senator Harkin. That is pretty amazing. You serve fresh 
vegetables--evidently, you were serving fresh fruits and 
vegetables long before my pilot program came into existence, 
and you have had good experience with this.
    Ms. Payne. We have had great experience. I do not know if 
you are familiar with collards, but we served about 500 pounds 
of collards the first year, and we have served over 3,000 
pounds this year.
    Senator Harkin. I spent most of my military career in the 
South, so my first introduction to collards was not too good. I 
mean, military cooking is not the best, OK? I have later come 
back around, yes, and obviously, they are very healthy.
    Ms. Payne. We have a reputation--we can feed people out of 
the weeds in our back yard. We always feed you.
    Senator Harkin. Well, my hat is off to you.
    What advice do you have for other schools. There are 24,000 
people in your community; that is a nice size community. What 
advice would you have for other schools?
    Ms. Payne. A couple things. First of all, you have to have 
the commitment of the community. We have this brochure--you 
have a copy of it--we send this out to parents, we put it in 
the Chamber of Commerce office, and local doctors waiting 
areas.
    Senator Harkin. I did not see it. I saw it mentioned in 
your testimony, but I did not see it.
    Ms. Payne. I am sorry. We have a few more. She is going to 
bring you one.
    Senator Harkin. Thanks.
    Ms. Payne. At any rate, we do a lot of advertising in the 
community that this is what we do, so if your children eat 
nutritious at school, if you have ball games or are running 
around at night, it is not as hard to go through that drive-
through.
    The other thing is the real commitment to not frying 
anything. We turned our fryers off. The only time a fryer is 
used in our schools is when we do a banquet at night where it 
is requested. We do not even have fryers anymore in some of our 
elementary buildings; in our new buildings, we have not 
installed fryers. We only fry for banquets.
    Now, that is not to say we have an easy time finding foods 
that we can meet the Dietary Guidelines, because high-sodium 
and fried foods are a lot of what is available. Pre-fried 
chicken and so on has already been fried, but we are not frying 
it again.
    When you asked about the pyramid, it is probably heavy on 
the starchy end. However, until we meet that pyramid, we are 
not ready to go on and meet something else, and that our Nation 
as a whole, we are not meeting that pyramid yet. If you really 
look at what our Nation is doing, the meat and the fat would be 
the bottom. If you really look at what our Nation is doing, we 
are not meeting that pyramid, and not in our schools, either, 
because we are only reviewed for the week that the auditors 
come. I hear that--``I cannot balance my budget if I serve 
those foods, so I will only serve them when the auditors are 
coming.'' We do not fry any time, and our children are eating 
90 percent.
    Senator Harkin. Wow. That is pretty awesome.
    Ms. Payne. The parents have to buy into it, and our 
superintendent is a strong believer in what we are doing, and 
we do not have schools that pull away from the program because 
he does not--it is just one of those positive approaches where 
it is not really tolerated.
    Senator Harkin. Thank you.
    Mr. Heiman, again, thank you for being here and for 
participating in the free fruits and vegetables program. I know 
that Ms. Nece from Des Moines administers that program in Iowa.
    From the States where we have had this program--Michigan, 
Ohio, Indiana, and Iowa--at least the preliminary data that we 
have is that it has been a great success and that some initial 
problems were gotten through in terms of handling it and that 
type of thing.
    The biggest question we get is will it continue. Well, we 
just do not know, because it was just a 1-year pilot program. 
You shed a different light on it that I never thought about in 
terms of all the unintended benefits of this. What we have 
found is that--and I guess maybe those of us who are upper-
middle-class and those of us who were raised in rural areas 
where we always had fresh fruits and fresh vegetables growing 
up--and my mother canned it, so we had stuff all winter long--
we do not realize that for many low-income families, fruit is 
something they just do not buy--it is just too expensive. We 
have had--and this is more than anecdotal--we have had kids in 
these various States in this pilot program putting fruit in 
their pockets and taking it home, and when they were asked 
about it, they would say, ``I have a brother at home, and we 
have never had any of this. We do not have it at home.'' It 
opened my eyes to the fact that a lot of people in this country 
simply do not have fresh fruits or vegetables very often.
    I hope we can continue the program, and I hope we can 
expand it. Obviously, it costs money, but as you pointed out, 
we have had some private-public partnerships in Iowa--Hi-Vee 
Grocery has been very helpful in Iowa; I know that--to help 
that program along. Again, we have to look--and this is what is 
always difficult, and this is what CBO never looks at--what do 
we save down the pike for having healthier kids. We just do not 
look at that down the pike, so it is always a cost but never a 
savings.
    Again, I appreciate your testimony on that, all of you.
    Mr. Kozak, I had a proposal 12 years ago that what we 
should do to get kids to drink milk in schools is just give 
them free milkshakes. Then they would drink milk. It would cost 
money, but you would get them to drink milk. Later on they told 
me that was too much sugar, that they should just drink milk 
straight, and I said OK, fine. We have to figure out some ways 
of doing this. There are problems; there are problems with 
this.
    Again, I thank you all very much. I do not want to go on 
any longer. You have been here long enough.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Harkin, for your 
contribution to this hearing and for chairing the hearing today 
with me. This is a good way for us to start the year in the 
Agriculture Committee, with bipartisan cooperation, a well-
behaved audience. Thank you all for your assistance in keeping 
the hearing moving along in a professional manner.
    To all the witnesses who have been here today, you have 
really been a great help to us. We know that you worked hard in 
preparation for the hearing and getting here today--you made 
sacrifices--and we thank you for that.
    Our next hearing will be later this month when we will 
continue to hear from witnesses from the administration. Those 
who have the responsibility for administering the Federal 
programs will come and testify. Also, we will be looking into 
some of the other programs specifically, like the Women, 
Infants, and Children Program, and other food and nutrition 
assistance programs that the Federal Government supports.
    Until then, this committee will stand in recess.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             March 4, 2003




=======================================================================

[GRAPHIC] [TIFF OMITTED] T8720.049

[GRAPHIC] [TIFF OMITTED] T8720.050

[GRAPHIC] [TIFF OMITTED] T8720.051

[GRAPHIC] [TIFF OMITTED] T8720.052

[GRAPHIC] [TIFF OMITTED] T8720.001

[GRAPHIC] [TIFF OMITTED] T8720.002

[GRAPHIC] [TIFF OMITTED] T8720.003

[GRAPHIC] [TIFF OMITTED] T8720.004

[GRAPHIC] [TIFF OMITTED] T8720.005

[GRAPHIC] [TIFF OMITTED] T8720.006

[GRAPHIC] [TIFF OMITTED] T8720.007

[GRAPHIC] [TIFF OMITTED] T8720.008

[GRAPHIC] [TIFF OMITTED] T8720.009

[GRAPHIC] [TIFF OMITTED] T8720.010

[GRAPHIC] [TIFF OMITTED] T8720.011

[GRAPHIC] [TIFF OMITTED] T8720.012

[GRAPHIC] [TIFF OMITTED] T8720.013

[GRAPHIC] [TIFF OMITTED] T8720.014

[GRAPHIC] [TIFF OMITTED] T8720.015

[GRAPHIC] [TIFF OMITTED] T8720.016

[GRAPHIC] [TIFF OMITTED] T8720.017

[GRAPHIC] [TIFF OMITTED] T8720.018

[GRAPHIC] [TIFF OMITTED] T8720.019

[GRAPHIC] [TIFF OMITTED] T8720.020

[GRAPHIC] [TIFF OMITTED] T8720.021

[GRAPHIC] [TIFF OMITTED] T8720.022

[GRAPHIC] [TIFF OMITTED] T8720.023

[GRAPHIC] [TIFF OMITTED] T8720.024

[GRAPHIC] [TIFF OMITTED] T8720.025

[GRAPHIC] [TIFF OMITTED] T8720.026

[GRAPHIC] [TIFF OMITTED] T8720.027

[GRAPHIC] [TIFF OMITTED] T8720.028

[GRAPHIC] [TIFF OMITTED] T8720.029

[GRAPHIC] [TIFF OMITTED] T8720.030

[GRAPHIC] [TIFF OMITTED] T8720.031

[GRAPHIC] [TIFF OMITTED] T8720.032

[GRAPHIC] [TIFF OMITTED] T8720.033

[GRAPHIC] [TIFF OMITTED] T8720.034

[GRAPHIC] [TIFF OMITTED] T8720.035

[GRAPHIC] [TIFF OMITTED] T8720.036

[GRAPHIC] [TIFF OMITTED] T8720.037

[GRAPHIC] [TIFF OMITTED] T8720.038

[GRAPHIC] [TIFF OMITTED] T8720.039

[GRAPHIC] [TIFF OMITTED] T8720.040

[GRAPHIC] [TIFF OMITTED] T8720.041

[GRAPHIC] [TIFF OMITTED] T8720.042

[GRAPHIC] [TIFF OMITTED] T8720.043

[GRAPHIC] [TIFF OMITTED] T8720.044

[GRAPHIC] [TIFF OMITTED] T8720.045

[GRAPHIC] [TIFF OMITTED] T8720.046

[GRAPHIC] [TIFF OMITTED] T8720.047

[GRAPHIC] [TIFF OMITTED] T8720.048


=======================================================================


                         QUESTIONS AND ANSWERS

                             March 4, 2003




=======================================================================

[GRAPHIC] [TIFF OMITTED] T8720.053

[GRAPHIC] [TIFF OMITTED] T8720.054

[GRAPHIC] [TIFF OMITTED] T8720.055

[GRAPHIC] [TIFF OMITTED] T8720.056

                                   - 

</pre></body></html>
